<html>
<title> - DOCUMENT PRODUCTION STATUS UPDATE, PART II</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                   DOCUMENT PRODUCTION STATUS UPDATE,
                               PART II

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2016

                               __________

                           Serial No. 114-134

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-502 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                 
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
                   Jonathan Skladany, Senior Counsel
                    Tristan Leavitt, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 19, 2016...................................     1

                               WITNESSES

The Hon. Howard Shelanski, Administrator, Office of Information 
  and Regulatory Affairs, Office of Management Budget
    Oral Statement...............................................     6
    Written Statement............................................     8
The Hon. Jim R. Esquea, Assistant Secretary for Legislation, U.S. 
  Department of Health and Human Services
    Oral Statement...............................................    11
    Written Statement............................................    13
Mr. Jonathan E. Meyer, Deputy General Counsel, Office of General 
  Counsel, U.S. Department of Homeland Security
    Oral Statement...............................................    15
    Written Statement............................................    17


 
               DOCUMENT PRODUCTION STATUS UPDATE, PART II

                              ----------                              


                        Tuesday, April 19, 2016

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, Massie, Meadows, DeSantis, Buck, Walker, 
Blum, Hice, Carter, Grothman, Hurd, Palmer, Cummings, Clay, 
Connolly, Cartwright, Kelly, Lawrence, Lieu, Watson Coleman, 
Plaskett, DeSaulnier, and Welch.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    This is an important hearing, and I appreciate the 
participation here. It's our second document production status 
hearing. Our invitation letters for these hearings went out 4 
or 5 weeks in advance, as opposed to the normal 2-week notice. 
The extra time will allow for some cooperation and, hopefully, 
for some document production.
    For our first hearing in January, we invited 10 agencies. 
When the hearing occurred, we had resolved our differences with 
five agencies. It was highly productive to do so.
    For this hearing, we invited eight agencies, but three 
remain, three of the most problematic agencies that we have run 
into.
    Our expectations have not changed. When you get a letter 
from the Oversight and Government Reform Committee, it is not 
optional. When you get a subpoena from the Oversight and 
Government Reform Committee, it is not optional. It is not a 
game that we are trying to play where agencies try to hide the 
documents as long as possible and run out the clock. It impedes 
our ability to do our jobs. And you have a constitutional duty, 
role, and responsibility to provide those documents to this 
Congress.
    We require extensive cooperation. Most of the agencies that 
we deal with do it in a fair, honest, and prompt way. For any 
given investigation, we often need 10 to 15 witnesses to appear 
before us for transcribed interviews. When the committee sends 
a document request, we expect an honest effort to collect and 
respond to those requests. We expect communication. We expect 
to be informed, and we expect those agencies and the people 
that represent those agencies to be honest and straight with 
us. And we expect you to work with us in good faith, which 
basically means when you make a commitment, you do what you say 
you are going to do. For me personally, as a principle, it is 
one of the most important things you can do. Just do what you 
say you are going to do.
    Today, we are going to hear from a group of senior agency 
officials from three Cabinet departments. The Office of 
Management and Budget is here to address its response to a 
subpoena for materials from its OIRA component, the Office of 
Information and Regulatory Affairs, related to the Waters of 
the United States rulemaking. OIRA is an office created by 
Congress, and the job is to review draft and proposed 
regulations and to ensure continuity across government in that 
rulemaking process.
    We will also hear from the Department of Health and Human 
Services. We want to discuss their refusal to produce documents 
related to ObamaCare CO-OPs and exchanges. And the Department 
of Homeland Security will discuss our oversight request related 
to the Secret Service, the TSA, and the Immigration and Customs 
Enforcement, often known as ICE.
    Let's talk first about OIRA. They have failed to comply 
with the committee's subpoena issued over 9 months ago. This is 
a subpoena that was issued on July 14 of 2015. The committee 
has been investigating this matter for more than a year. To 
date, OIRA has produced about 6,000 pages. Roughly 80 percent 
of those pages are meaningless because they are either 
duplicates or just copies of the publicly available rule. 
Despite what is in his testimony from Mr. Shelanski, let me 
repeat, 80 percent of that is meaningless because they are 
duplicates or they are publicly available.
    By way of comparison, the EPA voluntarily produced more 
than 22,000 pages related to the rule in the same amount of 
time. Likewise, the State of Michigan voluntarily produced more 
than 43,000 pages in response to Flint in just 2 weeks. I am 
not saying we are done with them, but you can understand the 
volume that we are getting and the swift manner that we are 
getting.
    Problems go beyond withholding documents. OIRA has 
intentionally misled and misdirected our investigators. For 
example, for more than a year, OIRA failed to identify four key 
officials who reviewed the rule. Let's remember that OIRA has 
less than 100 employees. This is not some big, massive 
bureaucracy with thousands of people. You can literally walk 
around the halls and around the corner and go find the person 
that you need.
    It was only after we started conducting transcribed 
interviews under oath the names surfaced, and we still don't 
know if OIRA searched their emails as well. We hope to find out 
today.
    Administrator Shelanski testified before this committee 
that he had no communication with the EPA about this rulemaking 
and that OIRA does not engage with agencies before a formal 
rule review is commenced, although the committee has uncovered 
documents and information proving both of these statements as 
untrue and false.
    Mr. Shelanski, we expect you to answer under oath today and 
clarify this.
    Health and Human Services, we invited the Department of 
Health and Human Services today because persistent problems at 
exchanges and CO-OPs have cost taxpayers billions of dollars 
and left many consumers scrambling to find health insurance. 
The CO-OP problem is particularly problematic. Twelve of 23 CO-
OPs have failed. Eight of the 11 remaining CO-OPs are predicted 
to fail this year. Health and Human Services has not provided 
any valid legal reason for withholding the information from 
this committee. Rather, they assert that if certain information 
was released publicly, it could cause consumers to think twice 
before enrolling in CO-OP insurance plans.
    We know CO-OPs are failing. Given the well-documented 
troubles, the committee has had a strong interest in ensuring 
the administration is doing all it can to safeguard the $2.4 
billion in taxpayer dollars loaned to these failing CO-OPs. 
There's an additional $5 billion in Federal grants on the line 
that States received to establish their own exchanges. 
Exchanges are plagued by security flaws, call center glitches, 
Web site failures, software problems, lower than expected 
enrollment numbers, and deficient processes for determining 
eligibility.
    Our efforts to obtain information on these programs have 
been met with unexplained delays and what seems like bad faith.
    And in Homeland Security--we have a witness here from the 
Department of Homeland Security. They are here to answer for 
three separate inquiries. Each of the inquiries involves a 
different agency: the Transportation Security Administration, 
the TSA; the Immigration and Customs Enforcement, ICE; and the 
United States Secret Service. In each of these cases, the 
committee requested documents and testimony directly from the 
relevant DHS component. The DHS subsequently inserted itself as 
the gatekeeper for documents and testimony.
    Homeland Security has perfected the art of stonewalling. 
Specifically, Homeland Security failed to meet a host of 
deadlines in response to committee letters, many which were 
bipartisan in their nature, and provided only redacted 
materials, despite subpoenas clearly instructing otherwise. 
Homeland Security also stalled on making employees available 
for transcribed interviews. When the committee was finally able 
to interview one of the employees, DHS attorneys refused to let 
the employee answer the committee's question of whether the 
employee had been discouraged from appearing before the 
committee. This is textbook obstruction, and it will not stand.
    A successful working relationship between a congressional 
committee and an executive branch agency requires effort, 
communication, and good faith on both sides. We need 
transparency, and we have to have an understanding of what is 
happening. And it is our decision, Congress' decision, what we 
investigate, not yours. And we will make sure that we go and 
follow the truth wherever it may take us, and that requires 
documents and the interaction with people.
    I yield back and now recognize the ranking member, the 
gentleman from Maryland, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I 
appreciate you holding this hearing.
    As I pointed out at a previous hearing on document 
productions, I strongly support the authority of our committee 
to obtain documents we need as part of our investigations. It 
is impossible for us to do our job without documents.
    The executive branch agencies and outside entities have a 
duty to comply with our request, regardless of which party is 
in the majority. Documents are one essential tool we use to 
investigate waste, fraud, and abuse and to ensure that our 
government runs as effectively and efficiently as possible.
    Just this past December, our committee adopted by unanimous 
vote a bipartisan report on the U.S. Secret Service and made 
key recommendations for improving the effectiveness and 
efficiency of that agency. That report would not have been 
possible without thousands of pages of documents we obtained as 
a part of our oversight efforts.
    Our ongoing investigation into the water crisis in Flint, 
Michigan, is another example. Documents obtained by this 
committee reveal how the actions of Governor Snyder and his 
administration caused this disaster. That investigation is 
ongoing, and we received another production of documents on 
Friday.
    So I wholeheartedly agree that documents are a critical 
tool for us to conduct our oversight duties and 
responsibilities, but we also have an obligation to use that 
power responsibly and avoid massive and overbroad requests that 
create the very waste and inefficiency we are trying to 
eliminate. Our document requests should focus on investigating 
actual waste or wrongdoing, rather than fishing for nonexistent 
problems or using the power of the committee for partisan 
attacks. We need to recognize how much work goes into 
responding to our requests and how many taxpayer dollars are 
spent.
    We have an obligation to craft our requests narrowly, to 
seek only those documents we need to do our jobs. For example, 
in the case of IRS, we have now received more than 1.3 million 
pages of documents at a cost of tens of millions of taxpayer 
dollars, including a request for the emails of Lois Lerner, the 
ones she wrote going back to 1986. The acting Republican 
inspector general at the IRS has identified no evidence of 
political targeting, nor has the Department of Justice, nor has 
this committee. Still this investigation continues with no end 
in sight.
    This is an example of what I believe is an abuse of the 
committee's authority. Forcing agencies to divert personnel and 
spend critical taxpayer dollars on baseless and overbroad 
document requests is counterproductive to good government 
because it causes the very waste and inefficiency our committee 
is charged with eliminating. Ironically, the cost to taxpayers 
by agencies to fulfill requests like these sometimes exceeds 
any possibility for cost savings.
    Finally, let me make one last point. The invitation letters 
for today's hearing suggests the agencies testifying before us, 
quote, ``routinely fail to cooperate and have produced nothing 
of value in response to our request.'' That's simply not the 
case. For example, HHS has made seven formal and informal 
productions, totaling more than 30,000 pages, in response to 
the committee's request for information about Consumer Operated 
and Oriented Plans under the Affordable Care Act. Now, I 
understand that the Republicans hate the Affordable Care Act 
and will continue to attack it, but HHS has been extremely 
responsive.
    I also understand that the House Republicans are engaged in 
an orchestrated attack on the administration's new Clean Water 
rule, known as Waters of the United States, or WOTUS. They 
oppose the expanded protection of our Nation's waterways. So 
they've been investigating this new rule by sending massive 
document requests to EPA, the Army, and the Office of 
Information and Regulatory Affairs, which is here today.
    But these agencies are also cooperating. EPA made 15 
productions over the past year, totaling 24,670 pages of 
documents. The Army made 7 productions, totaling 13,087 pages. 
And OMB has made 8 productions on behalf of OIRA, totaling more 
than 6,000 pages.
    As I noted earlier, DHS has been producing tens of 
thousands of pages of documents from its component agencies. 
These include the Secret Service, the U.S. Citizenship and 
Immigration Services, Transportation Security Administration, 
and the Immigration and Customs Enforcement, in response to 
dozens of requests from our committee. These agencies are not 
refusing to cooperate with the committee. They are trying to do 
their jobs, trying to act professionally, trying to protect the 
legitimate interests of the executive branch and trying to 
provide this committee with the information we need to fulfill 
our oversight responsibilities under the Constitution of the 
United States of America.
    So I thank our witnesses for being here today, and I hope 
we can explore these issues in an earnest way so that this can 
be a win-win situation where we're able to do our job for the 
American people and do it effectively and efficiently.
    With that, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    I will now recognize our witnesses, starting with Howard 
Shelanski, the Administrator of the Office of Information and 
Regulatory Affairs at the Office of Management and Budget.
    We also have the Honorable Jim--help me pronounce your last 
name.
    Mr. Esquea. Esquea.
    Chairman Chaffetz. --Esquea, Assistant Secretary for 
Legislation at the United States Department of Health and Human 
Services, and Mr. Jonathan Meyer, Deputy General Counsel at the 
Office of General Counsel at the United States Department of 
Homeland Security.
    We thank you all for being here. Pursuant to committee 
rules, all witnesses are to be sworn before they testify. If 
you will please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. You may be seated.
    Let the record reflect that all of the witnesses answered 
in the affirmative.
    We are now going to recognize each of you for your oral 
statement, which we would appreciate if you would limit to 5 
minutes, so we maximize the time for questions. Your entire 
written statement will be made part of the record.
    Mr. Shelanski, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

          STATEMENT OF THE HONORABLE HOWARD SHELANSKI

    Mr. Shelanski. Thank you, Mr. Chairman.
    Chairman Chaffetz, Ranking Member Cummings, and members of 
the committee, I appreciate the opportunity to appear before 
you today. The Office of Information and Regulatory Affairs, 
OIRA, is a statutory part of the Office of Management and 
Budget within the Executive Office of the President. The office 
serves as the U.S. Government's central authority for the 
review of executive branch regulations. As Administrator of 
OIRA, I believe strongly in the importance of congressional 
oversight and the value that Congress provides ensuring that 
OIRA, OMB, and the administration are working in the most 
effective and efficient way on behalf of the public. I am 
committed to working with Congress and this committee and to 
provide the information this committee needs to conduct its 
lawful oversight functions.
    OIRA works with OMB's Office of Legislative Affairs, Office 
of the General Counsel, and other offices within OMB to respond 
to congressional requests for information, briefings, and 
documents, relating to issues under OIRA's purview. OMB as an 
organization strives to provide transparent responses to those 
congressional inquiries in a timely manner. OIRA has a broad 
portfolio that ranges from coordination of governmentwide 
information with statistical policy to review of executive 
branch regulations to international regulatory cooperation.
    Pursuant to Executive Order 12866 and Executive Order 
13563, OIRA is responsible for review of significant Federal 
actions issued by executive departments and agencies. OIRA 
works under long-established principles that have been 
implemented across several administrations of both parties.
    OIRA is a relatively small office of approximately 50 
employees. The sheer volume of work the dedicated OIRA staff 
does related to rulemakings, information collections, and other 
matters is impressive. In 2015 alone, OIRA reviewed over 400 
rulemakings, over 2,800 information collections, and held 
hundreds of meetings at the request of stakeholders of all 
kinds, including numerous meetings by phone and in person with 
Members of Congress and their staff at their request. We are 
committed to maintaining the integrity of regulatory review and 
ensuring the process is accessible and responsive.
    The committee has asked me to testify today about its 
request for information related to OIRA's review of the Clean 
Water rule defining Waters of the United States that the 
Environmental Protection Agency and the Department of Army 
finalized last year.
    Since this committee's initial request and subsequent 
subpoena, OIRA has worked with others within OMB in a good-
faith effort to respond to the committee's request related to 
this rule. To that end, we, to date, have provided eight sets 
of responsive documents to the committee. These productions 
have so far provided the committee with over 6,400 pages of 
documents, the vast majority of which consist of nonpublic 
information. We have made these productions to the committee 
without any substantive redactions. Our most recent production 
to the committee, on April 7, 2016, less than 2 weeks ago, was 
our largest to date. Additionally, we have continued to provide 
regular productions to the committee as we continue working 
through our review to identify responsive information.
    We have also voluntarily agreed to a number of transcribed 
interviews of OIRA officials. To date, the committee has 
interviewed two senior OIRA officials involved with review of 
the rule. I have also agreed to participate in a transcribed 
interview, which I understand has now been scheduled.
    This is also my second time testifying before this 
committee on its interest in OIRA's review of the Clean Water 
rule within a little over a month. OMB's Associate Director for 
Legislative Affairs also testified before this committee in 
January of this year on the same topic.
    In short, OMB is working diligently to satisfy the 
committee's request and to answer your questions concerning 
OIRA's review of the Clean Water rule. We remain committed to 
Congress' oversight process and look forward to continuing to 
work cooperatively with the committee. Thank you again for your 
time and attention. I would be pleased to answer any questions 
you may have.
    [Prepared statement of Mr. Shelanski follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Chairman Chaffetz. Thank you.
    Mr. Esquea, you're now recognized for 5 minutes.

            STATEMENT OF THE HONORABLE JIM R. ESQUEA

    Mr. Esquea. Mr. Chairman, Ranking Member Cummings, and 
members of the committee, I appreciate this opportunity to 
testify on the Department of Health and Human Services' 
response to congressional oversight and request for documents. 
My name is Jim Esquea. I am the Assistant Secretary for 
Legislation at HHS. Prior to coming to HHS, I was on the staff 
of the Senate Committee on the Budget for 11 years for Senator 
Kent Conrad of North Dakota. I have a deep appreciation for the 
important work of Congress and strive to facilitate positive 
and productive interactions between Congress and HHS every day.
    HHS' mission is to enhance and protect the health and well-
being of all Americans. We accomplish this mission every day by 
providing effective health and human services and fostering 
advances in medicine, public health, and social services. Our 
11 operating divisions include large and diverse agencies, such 
as the Centers for Disease Control and Prevention, the Centers 
for Medicare and Medicaid Services, the Food and Drug 
Administration, and the National Institutes of Health. From 
providing healthcare coverage to more than 100 million people 
through Medicare, Medicaid, and the Children's Health Insurance 
Program, and the Health Insurance Marketplace, to conducting 
cutting-edge biomedical research, and working to assure the 
safety, effectiveness, and quality of foods, drugs, vaccines, 
and medical devices, HHS programs touch the lives of all 
Americans.
    As part of its critical mission to enhance and protect the 
health and well-being of all Americans, HHS also regularly 
interacts and communicates with Congress. Secretary Burwell has 
made working cooperatively with Congress one of her key 
priorities, and we view Congress as a valuable partner as we 
work together on legislation, appropriations, and oversight. 
HHS recognizes and values Congress' important oversight role 
and has a long history of cooperating with oversight requests 
for information regarding its programs. As the Assistant 
Secretary for Legislation, my office works with many different 
committees and members on a daily basis to provide Congress 
with accurate, complete, and timely information. Given my 
previous experience working for the Senate, I certainly 
understand and respect the importance of Congress' oversight 
function. Given the breadth of the programs administered by the 
Department, we receive inquiries from virtually every Member's 
office and regularly receive a variety of requests from at 
least 20 committees on both the House and Senate side. Since 
the 114th Congress began in January of 2015, the HHS has 
responded to over 5,200 congressional letters, testified at 
almost 150 hearings, and provided at least 1,600 briefings to 
the Hill. In addition, we have responded to numerous requests 
for documents to multiple committees and have provided tens of 
thousands of pages of documents. Agency staff also routinely 
responds to numerous informal inquiries from Congress for 
requests for information or for help with constituent work.
    In responding to this incredible volume of requests, we 
work to accommodate Congress' legitimate oversight inquiries, 
consistent with important executive branch interests, while 
being cognizant of resource constraints. We work 
collaboratively with congressional staff to understand 
priorities and to develop mutually agreeable solutions. Often, 
we receive very broad and complex requests that may involve 
many different components of the Department. Such requests 
require more time and attention to ensure that we are providing 
accurate and complete information.
    There have also been some instances where committees have 
requested extremely sensitive information, involving 
cybersecurity, market sensitivity, ongoing law enforcement 
investigations, personally identifiable information, and 
internal deliberations. In such situations, we have sought 
solutions to balance the committee's interests and our 
obligations to safeguard certain information. We have provided 
substantive narrative responses, briefings by agency experts, 
and in-camera reviews. In all cases, we work hard to respond to 
Congress' request for information about our programs. We look 
forward to continuing to work with this committee and others to 
respond to requests for information in a timely manner 
consistent with our obligations to safeguard important 
information.
    Thank you for the opportunity to be here today. I am more 
than happy to answer your questions. And, Mr. Chairman, as you 
said in a previous hearing and as you reminded us today, the 
most important thing we can do is keep an open line of 
communication. I think we have done that, and we have been 
aggressive about doing that, but we hear you loud and clear, 
sir.
    [Prepared statement of Mr. Esquea follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
       
    Chairman Chaffetz. Thank you.
    Mr. Meyer, you are now recognized for 5 minutes.

          STATEMENT OF THE HONORABLE JONATHAN E. MEYER

    Mr. Meyer. Thank you. Good morning. Mr. Chairman, Ranking 
Member Cummings, distinguished members of the committee, I'm 
honored to appear before you today representing the Department 
of Homeland Security to discuss the considerable efforts DHS 
devotes to complying with oversight requests by this committee 
and by the United States Congress generally.
    My name is Jonathan Meyer, and I serve as Deputy General 
Counsel at DHS. I have devoted the bulk of my career to public 
service and have had the honor to work in both Chambers of 
Congress for Members on both sides of the aisle as well as in 
positions in the executive branch as both a career and a 
political appointee. I consider it a high privilege to have 
done so, and the varied experience I have accumulated informs 
my daily work on behalf of the American people. As Deputy 
General Counsel, I oversee DHS attorneys who are responsible 
for litigation, regulations, and legislation that is handled by 
the Office of the General Counsel, and I supervise attorneys 
providing advice to the many components, offices, and 
directorates at DHS. More relevant to today's hearing, I also 
supervise our small congressional oversight team, which works 
closely with our Office of Legislative Affairs and components 
of the Department to assist and advise them on responding to 
congressional oversight requests from the 92 committees and 
subcommittees with jurisdiction over the Department.
    As Assistant Secretary for Legislative Affairs, Tia Johnson 
said during her testimony in January, Secretary Johnson has 
pledged transparency and candor with Congress and has committed 
to respond to congressional inquiries in a timely fashion. 
Under his leadership, the Department's responsiveness to 
oversight requests has improved by over 60 percent. We have cut 
our average response time from 42 business days to less than 
17.
    We have accomplished this in spite of a significant 
increase in oversight requests. During calendar year 2015, DHS 
received approximately 700 oversight letters and countless more 
oversight requests. Of those, 70 letters came from members of 
this committee. At the current rate, that number will double 
this year. Similarly, the hearing schedule has accelerated. DHS 
is on pace to provide half, again, as many hearing witnesses to 
this committee this year as last. Recognizing Congress' 
legitimate oversight responsibility, we are making even greater 
efforts to accommodate the committee's increased demands.
    In inviting DHS to testify today, the committee referenced 
the Department's responses to oversight requests and demands 
regarding the Transportation Security Administration, the U.S. 
Secret Service, and two immigration-related matters.
    In the past 6 months, TSA has received 8 letters with over 
30 requests for information. In response, TSA has made 
available approximately 21,000 pages of documents. TSA staff 
have conducted a briefing, and five TSA personnel have 
participated in transcribed interviews. Another briefing is 
scheduled for this Thursday.
    Since this committee began its oversight investigation of 
the Secret Service, it has issued 13 letters, 1 subpoena, and 
countless informal requests. In response, the Secret Service 
has provided 15 briefings, hearing testimony from 2 witnesses, 
and transcribed interviews by 8 employees who have voluntarily 
left their duties for the day to accommodate the committee's 
request. At the chairman's request, the Secret Service also 
facilitated a visit to its headquarters for members of this 
committee. In total, the Secret Service has made available over 
13,000 pages of documents in response to the committee's 
request in this area in addition to classified documents in the 
appropriate setting, all at a time when, as the chairman and 
ranking member have noted, the Secret Service is historically 
underresourced.
    These efforts have supplemented the Secret Service's hard 
work to respond to inquiries about the operations of the Secret 
Service from the independent Protective Mission Panel, 7 
investigations by the office of the inspector general, and the 
oversight inquiries of 10 other congressional committees and 
subcommittees.
    With regard to the immigration-related matters, the 
Department has produced over 2,000 pages of documents, provided 
a classified and unclassified briefing and a day-long 
transcribed interview of ICE's special agent in charge of its 
El Paso office, who flew in from Texas to accommodate the 
committee. We continue to work to accommodate your requests for 
documents and additional transcribed interviews.
    Mr. Chairman, Secretary Johnson has made responsiveness to 
Congress a priority, and DHS has shown results, but we are not 
resting on those results. We are determined to work with the 
committee to continue to improve our record. I'll be happy to 
answer any questions the committee may have.
    [Prepared statement of Mr. Meyer follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Chairman Chaffetz. Thank you.
    I will now recognize myself for 5 minutes.
    Mr. Shelanski, I want to start with you. On March 3, 2015, 
our colleague here, Mr. Meadows of North Carolina, asked you 
some questions regarding the Waters of the United States and 
made a request for documents. Correct?
    Mr. Shelanski. I believe that is correct, yes.
    Chairman Chaffetz. May 12, 2015, the committee issued you a 
letter requesting information regarding the Waters of the 
United States. Correct?
    Mr. Shelanski. I believe that is correct, yes.
    Chairman Chaffetz. On July 14, 2015, I issued a subpoena 
from this committee to you and the Office of Information and 
Regulatory Affairs. Correct?
    Mr. Shelanski. Yes, sir.
    Chairman Chaffetz. You received that subpoena. Correct?
    Mr. Shelanski. Yes, sir.
    Chairman Chaffetz. Did you understand the subpoena?
    Mr. Shelanski. Yes, sir.
    Chairman Chaffetz. Was there any ambiguity about the 
subpoena?
    Mr. Shelanski. It was a very broad subpoena, but I 
understood the subpoena.
    Chairman Chaffetz. The subpoena right here, one sentence 
essentially in terms of the schedule: all documents and 
communications referring or relating to the Environmental 
Protection Agency and the U.S. Department of Army rule defining 
the scope of the waters protected under the Clean Water Act.
    Is there anything that you didn't understand about that?
    Mr. Shelanski. No, sir.
    Chairman Chaffetz. What percentage of the documents in your 
agency have been provided to this committee?
    Mr. Shelanski. I don't know what the exact percentage is, 
in part because the subpoena goes back 9 years to June of 2006, 
and so I don't know what the full volume of documents 
ultimately would be. I do know that we have turned over a large 
number of documents, documents that we have prioritized the 
review of pursuant to counsel from your staff.
    Chairman Chaffetz. Why should we settle for anything less 
than 100 percent?
    Mr. Shelanski. We agree that you should receive the 
information that you need for your oversight review, and that 
is why we have continued to review and work through our 
documents as quickly as we can in response to your request.
    Chairman Chaffetz. Do you believe we should get 100 percent 
of the documents?
    Mr. Shelanski. I believe you should get all of the 
documents that are responsive to your request.
    Chairman Chaffetz. Do you believe we should get 100 percent 
of the documents?
    Mr. Shelanski. Without knowing what the documents are sir, 
without knowing what we are looking for, a lot of documents we 
have reviewed are nonresponsive. A lot of them contain other 
kinds of information. I believe you should get all the 
information you need for your oversight, and that is why we 
continue to work with your staff and to follow their counsel 
until you're satisfied.
    Chairman Chaffetz. You are under obligation to the 
subpoena. Correct?
    Mr. Shelanski. Yes.
    Chairman Chaffetz. Why have you not given us 100 percent of 
the documents?
    Mr. Shelanski. We have been very responsive.
    Chairman Chaffetz. No, no. That's not the question. 
Responsiveness, from my viewpoint, on a subpoena that was 
issued in July of 2015 would be give us 100 percent of the 
documents. Let me ask you another way. What do you think the 
United States Congress should not see?
    Mr. Shelanski. To date, we have turned over our documents 
without redaction, and we have not withheld any documents that 
we have reviewed.
    Chairman Chaffetz. So have you given us 100 percent of the 
documents?
    Mr. Shelanski. Of the documents that we have reviewed that 
are responsive to your subpoena, we have produced those to the 
committee.
    Chairman Chaffetz. Have you given us 100 percent of the 
documents?
    Mr. Shelanski. Our review is ongoing, sir.
    Chairman Chaffetz. Why?
    Mr. Shelanski. Because it takes time to review the 
documents. The subpoena is----
    Chairman Chaffetz. How much time does it take?
    Mr. Shelanski. All of the documents need to be read. We 
need to make sure that they're responsive.
    Chairman Chaffetz. But what are you redacting? Name a 
single thing that the United States Congress should not see in 
those documents.
    Mr. Shelanski. At this point, our documents, sir, that we 
have turned over have been unredacted.
    Chairman Chaffetz. It's the ones you haven't been turned 
over that I'm most worried about. What are you hiding? What are 
you hiding? Why does it take two hearings, a subpoena, letters, 
requests, and you still are nonresponsive?
    Mr. Shelanski. We are not nonresponsive, sir. We have 
turned over--since the last hearing--we have turned over 
roughly 1,500 additional----
    Chairman Chaffetz. I want know what percentage. I want to 
know what percentage.
    Mr. Shelanski. Because the review is ongoing, because we 
have prioritized the review of documents that your staff has 
advised us to prioritize. This is a 9-year subpoena.
    Chairman Chaffetz. No, no, no, no. Let me make this real 
clear. I want 100 percent of the documents. That's what's in 
the subpoena. What documents in your possession did you not 
give us?
    Mr. Shelanski. We have not finished reviewing all of the 9 
years covered by the subpoena, sir, so there are going to be 
documents that continue to be produced to the committee as we 
complete that review.
    Chairman Chaffetz. How many people are reviewing these 
materials?
    Mr. Shelanski. I think roughly half a dozen people are 
involved with the review.
    Chairman Chaffetz. Who are those people? Name them.
    Mr. Shelanski. They would include our Office of General 
Counsel.
    Chairman Chaffetz. No. I want their names.
    Mr. Shelanski. I believe that they include Ilona Cohen, our 
general counsel; Charles Luftig, our deputy general counsel. I 
am not sure of the names of all of their staff that are working 
with them on this, so it would include our Office of 
Legislative Affairs.
    Chairman Chaffetz. Have you provided documents to others in 
the government that you have not provided to Congress?
    Mr. Shelanski. My understanding is we are working with your 
committee and making the productions to you here in Congress.
    Chairman Chaffetz. Have you provided 100 percent of what's 
in your possession to the United States Congress?
    Mr. Shelanski. As we review, we have withheld nothing----
    Chairman Chaffetz. Mr. Shelanski, I'm on the verge of 
recommending and pushing forward a contempt citation on you 
personally, and so I want to know. I'm trying to give you every 
opportunity. It's the second hearing. Why should we not hold 
you in contempt of Congress?
    Mr. Shelanski. You should not hold me in contempt of 
Congress because we have been responsive to this. We were on 
our third production of documents prior to receiving your 
subpoena.
    Chairman Chaffetz. That was in July of 2015.
    Mr. Shelanski. Right. And we have already acknowledged 
that, after receiving the subpoena, we were slow, but then we 
had two document productions in December. And most of the 
production of documents that we have provided to you, sir, are 
nonpublic documents that consist of the communications that 
your staff asked us to prioritize, communications between the 
OIRA officials reviewing the rule and agency staff during the 
proposed rule phase, and we have moved forward with that. To 
date----
    Chairman Chaffetz. I have got to wrap up here. Who is Vlad 
Dorjets? Who is he?
    Mr. Shelanski. Vlad Dorjets is a desk officer within OIRA 
who worked on the final----
    Chairman Chaffetz. If we call him in for a transcribed 
interview, will you make him available?
    Mr. Shelanski. I understand that that discussion is ongoing 
between my staff and yours.
    Chairman Chaffetz. You're the Administrator. You're the 
head of the office. Are you or are you not--because I'll issue 
a subpoena. So tell me right now, what are we going to do?
    Mr. Shelanski. We will make available to you and the 
committee, Mr. Chairman, all of the witnesses that you need for 
your oversight purposes.
    Chairman Chaffetz. Cortney Higgins.
    Mr. Shelanski. Ms. Higgins is also a desk officer.
    Chairman Chaffetz. Stuart Levenbach.
    Mr. Shelanski. He is also a desk officer.
    Chairman Chaffetz. Amanda Thomas.
    Mr. Shelanski. She's an analyst in our office.
    Chairman Chaffetz. How many people in your office?
    Mr. Shelanski. We have about just under 50.
    Chairman Chaffetz. And how many people have been touching 
these documents?
    Mr. Shelanski. Within my office, within OIRA itself?
    Chairman Chaffetz. Yes.
    Mr. Shelanski. Within OIRA itself, everybody who was 
involved with the rule would be contributing to the effort.
    Chairman Chaffetz. I'm just asking how many people is that?
    Mr. Shelanski. I don't really know. I would guess five or 
six.
    Chairman Chaffetz. See this is--you're in the second 
hearing within a month. You're going to be setting records 
here, Mr. Shelanski. Our request was pretty simple, and it was 
a long time ago. You're leaving us with no other choices 
because when we issue a subpoena, it's not a suggestion. It's 
not a, ``Hey, let's start the review process.'' It's a demand. 
It's a compulsion to provide the documents that are in your 
possession, and you failed to do that. You've failed to 
recognize how important it is, and you are failing to live up 
to the obligations, your fiduciary responsibility to comply 
with that subpoena. My time is well expired. I'll now go to Mr. 
Connolly of Virginia and recognize him for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Shelanski, welcome back. When did you receive a 
subpoena from this committee?
    Mr. Shelanski. In July of 2015.
    Mr. Connolly. So last July?
    Mr. Shelanski. That's correct, sir.
    Mr. Connolly. And what was the subpoena for?
    Mr. Shelanski. The subpoena was for all documents related 
to our review of the Clean Water rule.
    Mr. Connolly. Any ballpark guess when you got that as to 
the volume, the number of pages of documents that would entail?
    Mr. Shelanski. It was hard to guess because we were 
instructed to go back to June 19, 2006, and we really didn't 
have any idea what might be----
    Mr. Connolly. So the subpoena covered a period of time that 
is now 10 years ago.
    Mr. Shelanski. That is correct, sir.
    Mr. Connolly. That could be a lot of documents presumably?
    Mr. Shelanski. Yes.
    Mr. Connolly. These are documents that would involve 
multiple agencies, including, of course, the EPA?
    Mr. Shelanski. Yes, sir.
    Mr. Connolly. Was there a point in time at which you could 
circumscribe the universe of potential number of documents 
involved?
    Mr. Shelanski. What we have tried to do is follow the 
counsel we received from committee staff as to where to begin 
our review of documents for production. We were originally 
asked to focus on the proposed rule, and we, therefore, turned 
over documents--prior to the subpoena--two production's worth, 
including communications between me and the Administrator of 
the EPA during the review of the proposed rule.
    Mr. Connolly. Yes. Because the chairman's questioning 
allows an impression that you are willfully ignoring a subpoena 
from the Congress, and I don't think any of us on either side 
of this committee would ever support a willful ignoring of a 
legitimate subpoena from the committee, which is charged with 
oversight of the Federal Government.
    So let me ask you, when you get a subpoena, when you got 
that subpoena, so what happened?
    Mr. Shelanski. So the first thing that happened is, 
obviously, I was concerned that our production prior to the 
subpoena had not been sufficient to satisfy Mr. Meadows' and 
the chairman's request.
    Mr. Connolly. Just to be clear, you're referring to 
previous requests for information not involving a subpoena?
    Mr. Shelanski. That is correct. And we had made two 
productions and were preparing our third at that time.
    Mr. Connolly. And what was the volume of those first two 
productions?
    Mr. Shelanski. I believe the first production was several 
hundred pages, and that consisted mostly of things that, while 
they were covered by the request, were publicly obtainable.
    Mr. Connolly. Did somebody in the agency, including perhaps 
yourself, look at the response to determine, ``This is being 
responsive,'' or, ``It's inadequate,'' or, ``We need to do 
more?''
    Mr. Shelanski. Yes.
    Mr. Connolly. And were there communications between 
committee staff and your office during that process?
    Mr. Shelanski. I do know that there was an effort during 
that time to find out from committee staff what they wanted us 
to prioritize, what they were most interested in.
    Mr. Connolly. Presumably, as part of the process, I mean, 
it's not a simple matter of, ``We have got a request or 
subpoena; let's fill up a pickup truck of anything that says 
'Waters of the U.S.' and throw it in the back of that truck and 
send it on up to Congress.'' Is that correct? There's some 
vetting process, some review process?
    Mr. Shelanski. That is correct. The search terms that we 
used in consultation with the committee staff were very broad 
because we wanted to try to capture everything that we could. 
We then went through to review the documents, and I made it 
clear to my staff throughout OIRA, actually prior to the 
subpoena and then again, that anybody who had any interaction 
with the rule was--and, in fact, everybody was to search their 
documents and to make them available.
    Mr. Connolly. Was it your view that the committee reverted 
to a subpoena because the committee felt your response to the 
previous request was inadequate?
    Mr. Shelanski. I was disappointed to receive the subpoena 
because I felt like we were working very hard to try to comply. 
In fact, just before receiving the subpoena, we had produced 
correspondence between me and the EPA leadership. We had 
notified the committee that we were producing several hundred 
additional pages within a week or two, which indeed we did a 
week after we received the subpoena. A lot of that material was 
deliberative process, confidential material, and we noted that 
in the letters.
    And we then proceeded to work very hard once we received 
the subpoena--and we have acknowledged we were a little bit 
slow out of the box for a variety of reasons--but then have 
come forward with five additional productions since then.
    Mr. Connolly. Is it my understanding that those productions 
have produced over 6,400 pages of documents?
    Mr. Shelanski. They have, over 6,400 pages of documents and 
of the documents that we understood were most relevant, and 
while we're not ending there, we wanted to start with what the 
committee thought was most relevant.
    Mr. Connolly. So the chairman has indicated not adequate; 
you must be hiding something. What would be the total amount of 
documents that we haven't gotten that we should get?
    Mr. Shelanski. Because we're continuing to review the 
documents that we searched, I don't know what the total number 
is. Many of the documents that we get at any moment are 
nonresponsive because the search terms are very broad. I would 
note that we have not withheld one document, and we have not 
redacted any of the documents that we have sent for anything 
except, for example, a personal phone number or something that 
is of a personal nature.
    Mr. Connolly. I want to be very clear. That is your sworn 
testimony today?
    Mr. Shelanski. My sworn testimony is that in our 
productions to date, we have withheld nothing. There is no 
document the committee has asked for that we have not turned 
over.
    Mr. Connolly. So, in response to the chairman's question, 
what are you hiding----
    Mr. Shelanski. We are hiding absolutely nothing, but we are 
continuing to review. We are not hiding, but we are not 
finished.
    Mr. Connolly. But review in and of itself is not an 
unreasonable thing for anybody to engage in in response to any 
such request?
    Mr. Shelanski. It is the standard practice, as I have been 
led to understand.
    Mr. Connolly. I would just note, you know, I was in local 
government for 14 years, and I was subject to a very strict 
FOIA set of requirements in the Commonwealth of Virginia, very 
strict. My phone records were subject to FOIA. My schedule was 
subject to FOIA. Any and all correspondence was subject to 
FOIA. And I certainly reserved the right, with the advice of 
counsel, to redact personal information when I responded to a 
FOIA and review the request. We also reserved the right, 
especially with respect to requests from media, to try to work 
with the media to hone the request, so we were responsive, but 
it wasn't just a fishing expedition.
    I certainly support the chairman and the full committee in 
any and all document requests that we may need to do our work, 
and we always want to hold executive branch agencies 
accountable and insist that they be responsive, and there's 
always a built-in tension, irrespective of who's in the White 
House and who's here.
    But we also want to make sure that we're being reasonable 
in as we review how responsive you are, and I think the process 
sometimes could be a little more complicated than we sometimes 
let on.
    Thank you for your testimony today.
    Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. Thank the gentleman.
    I now recognize the gentleman from Ohio, Mr. Jordan, for 5 
minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Esquea, under ObamaCare, how many CO-OPs were 
recognized by CMS and DHS?
    Mr. Esquea. It would be 23 CO-OPs actually went public.
    Mr. Jordan. And how much money did those 23 CO-OPs receive 
from taxpayers?
    Mr. Esquea. I believe it was $2.4 billion.
    Mr. Jordan. How many of those 23 CO-OPs are still in 
operation?
    Mr. Esquea. I believe there--11, I believe.
    Mr. Jordan. Which said another way, 12 of them have already 
failed, right, within the first year. Correct?
    Mr. Esquea. Yes.
    Mr. Jordan. And how many of the remaining 11 are under some 
kind of corrective action plan?
    Mr. Esquea. I believe, eight.
    Mr. Jordan. Eight of the 11. And of the 12 that failed, 
most of those were under a corrective action plan before they 
failed. Correct?
    Mr. Esquea. I believe so.
    Mr. Jordan. And of the ones that are left, the 11 that are 
operating, 8 of which are under corrective action plans, how 
many of those do you think are going to fail?
    Mr. Esquea. I don't actually run the CO-OP program, so I 
have no firsthand knowledge.
    Mr. Jordan. But I'm asking your opinion, as the guy who is 
Assistant Secretary of DHS, what you think is going to happen, 
based on experience? I got my theories, but I'm wondering what 
you think.
    Mr. Esquea. I am hopeful that they will continue to be an 
important option in terms of providing affordable and 
accessible coverage for consumers.
    Mr. Jordan. ``Hopeful'' is probably an understatement, 
wouldn't you say, Mr. Esquea, based on the history?
    Mr. Esquea. I think the CO-OP was an important option in 
the Affordable Care Act. Its purpose was to inject competition 
and provide another avenue for----
    Mr. Jordan. So if you're hopeful, are you seeing something 
that we're not seeing because we have asked you for--and back 
to the focus of this hearing and what the chairman talked about 
in his questioning--we have asked you for a number of pieces of 
information that you haven't given us? So maybe you've seen 
something that we haven't that makes you hopeful, because we're 
not hopeful, but we would at least like to see the information 
that you have so we can make a better determination on if, in 
fact, the 11 that are remaining, 8 under corrective action 
plans, are actually going to be in existence much longer.
    Mr. Esquea. Congressman, I appreciate the question, and I 
will say this: Since the first letter we got from the chairman 
back in November related to CO-OPs, we have worked very hard to 
provide significant, relevant, responsive documents. To that 
end, we have provided over 31,000 pages----
    Mr. Jordan. I don't want to hear the numbers. And I 
appreciate that, and I apologize for cutting you off, but we'll 
get thousands of this and thousands of that.
    Mr. Esquea. Well, but it is important to single out--and I 
will put that aside--but it is important to note that we did 
provide two in-camera reviews of these market-sensitive 
documents unredacted. We made them available to the committee.
    Mr. Jordan. Let me just, two letters, one in November and 
one in December, asking for specific pieces of information; a 
subpoena asking for specific information; one hearing already 
where we asked for information and still have yet to received 
it; and as you point out, two in-camera reviews, which I find 
strange. Why can't we just get the information? Why do we have 
to have an in-camera review? So let me ask you this. Eight of 
the plans that are still functioning are on corrective action 
plans. We have asked for the materials related to what exactly 
is involved in the corrective action plan. You've not given us 
that. And maybe even more importantly, we have asked which of 
these remaining 11 have had site visits? Can you tell me the 
answer to that? How many have had a site visit?
    Mr. Esquea. I believe we're working on that request for 
you. I think at the CO-OP hearing you held in February, which, 
in fact, was a very helpful hearing----
    Mr. Jordan. This, I guess, kind of cuts to the heart of it. 
There are only 11 of these things still operating, and you 
can't even tell me which of those 11 you went out to visit. 
That's a simple question, and that's one of the things we asked 
for in the two letters, one of the things we have asked for in 
the subpoena. Why can't you just tell us, ``We visited these 7 
of the 11, and here are the ones that we visited?'' Why can't 
you tell me that?
    Mr. Esquea. We are working hard to make sure we get that 
information for you from CMS.
    Mr. Jordan. It takes that long to find out if you've 
visited any of 11 sites?
    Mr. Esquea. We are working very hard to make sure that you 
get that piece of information and the rest of the information 
that you requested from that hearing.
    Mr. Jordan. That is like call someone up, ``Yeah, we 
visited,'' whatever. That, to me, seems problematic of this. If 
you can't even tell us which of the 11 remaining you went to 
see, it seems to me this would be a priority. If over half have 
already failed, we have lost over a billion taxpayer dollars, 
we have got 11 still functioning, 8 of those are under a 
corrective action plan, you should be able to tell us which 
ones you went out to visit.
    How about recoupment of any Federal funds? Can you tell me 
the progress on recouping the over a billion dollars that has 
already been lost to the taxpayer?
    Mr. Esquea. I believe we're working with DOJ in terms of 
recoupment of those funds.
    Mr. Jordan. Why does it have to be in-camera review? Why 
can't you just get the information to the chairman and to the 
committee and, more importantly, to the American taxpayer?
    Mr. Esquea. Again, thank you for that question. Because 
there's market-sensitive information in the documents 
themselves that if they were disclosed, quite frankly, they 
would undermine the ability of these CO-OPs to be competitive, 
and they would be no longer be able to operate on a level 
playing field.
    Mr. Jordan. To me, that is almost laughable. Over half have 
already failed. We know the other 11 are going to fail. What 
market sensitivity is there? This thing is a complete and total 
failure, and somehow to hide behind that and say you have to 
come review it in camera--and my understanding is when staff 
reviewed it in camera, again, it wasn't responsive to the 
subpoena and the letters that we had sent.
    One other thing here, Mr. Chairman, and I'll be done.
    ``I will work to ensure the office continues to focus on 
providing Members the technical assistance they need on 
legislative priorities, answering oversight requests, and 
ensuring that Members have the information necessary to meet 
the needs of their constituents...accurate information 
available...that is presented in a manner that is useful. The 
only way information is of any use to Members and policymakers 
is if it is timely delivered.''
    Didn't you say that Mr. Esquea?
    Mr. Esquea. I said that at my confirmation hearing.
    Mr. Jordan. Well, and it was well-said. That's all we're 
asking is for you and DHS to live up to what you said when the 
United States Senate confirmed you for the position you hold. 
And specifically about a CO-OP program that is a complete 
failure, at least tell us what's happening with the recoupment 
of taxpayer dollars and what's happening with the site visits 
to the 11 remaining CO-OPs.
    And, with that, I yield back.
    Mr. Esquea. Mr. Chairman, I did make a promise at my 
confirmation hearing, and I'm living up to that promise. Since 
we got the first letter related to CO-OPs back in November, we 
have been very aggressive about being responsive to the 
committee's requests, and we will continue to be responsive to 
this committee's request. Again, these documents will be 
available in camera, unredacted, with no time limit for any 
member of this committee. That I can assure you.
    Chairman Chaffetz. When?
    Mr. Esquea. We will schedule it whenever you like, sir. 
Again, we will make these documents available to you for in-
camera review, unredacted, whenever you like at the convenience 
of this committee. I take my responsibility very, very 
seriously.
    Chairman Chaffetz. Thank you.
    We will now recognize the gentleman from Pennsylvania for 
6-1/2 minutes in equal time.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And thank you, Secretary Esquea for being here. I 
appreciate your answers.
    I read your written submitted testimony,and on this point 
that Mr. Jordan was bringing up, you said that there have also 
been some instances where committees have requested extremely 
sensitive information, involving cybersecurity, market 
sensitivity, ongoing law enforcement investigations, personally 
identifiable information, and some other things.
    So I appreciate that the committee has not publicly 
disclosed confidential information about the currently 
operating Consumer Operated and Oriented Plans, so-called CO-
OPs, but given that the committee is continuing to pursue these 
sensitive documents, I want to reiterate my concern about 
releasing this information in a way that would mislead 
consumers about the insurance companies in their States. 
Empowering consumers through transparency is a good thing, but 
that's not what we would be accomplishing by releasing market-
sensitive information in this way. In reality, it would be 
misleading selectively to release information only about the 
currently operating CO-OPs that have been placed under 
corrective action plans, enhanced oversight plans, by HHS, 
without releasing similar information about all of the 
insurance companies in these States. Regulators at the State 
and Federal level routinely use CAPs, corrective action plans, 
enhanced oversight plans, and other regulatory tools, like 
consent orders, to make sure insurers stay on track. Secretary 
Esquea, HHS uses CAPs to monitor and regulate private insurance 
companies in the Medicare Advantage market. Am I correct in 
that?
    Mr. Esquea. That would be correct sir.
    Mr. Cartwright. And large insurance companies offering 
Medicare Advantage plans might be placed under a CAP or 
enhanced oversight plan by HHS. Am I correct in that?
    Mr. Esquea. That would be correct.
    Mr. Cartwright. State insurance regulators use similar 
tools to address issues raised by consumer complaints, like 
billing or claims practices. Correct?
    Mr. Esquea. Yes, sir.
    Mr. Cartwright. So the committee held a hearing on the CO-
OP program in February, and before that hearing, the committee 
received a letter from the National Association of Insurance 
Commissioners, or NAIC, and Mr. Chairman, I do ask unanimous 
consent to place this letter into the record for today's 
hearing.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cartwright. And here's what the NAIC had to say about 
the disclosure of confidential information related to the CO-
OPs, and I quote: ``For the sake of the 11 CO-OPs that continue 
to operate in our States, we encourage all congressional 
Members and their staff to heed the confidential nature of some 
of the financial information that may come to your attention. 
Divulging information on State actions or the financial status 
of any plan that is not public could threaten the long-term 
success of these plans.''
    Secretary Esquea, my understanding is that HHS has already 
provided the documents the committee is asking about today in 
two separate in-camera review sessions with committee staff. Am 
I correct in that?
    Mr. Esquea. That would be correct, sir.
    Mr. Cartwright. And, of course, ``in camera'' is a $50 
Latin phrase that means in private, but in a way the committee 
can see it. Right?
    Mr. Esquea. Yes, sir. In private, unredacted.
    Mr. Cartwright. All right. So would HHS be willing to 
provide additional in-camera review sessions for any member of 
this committee who would still want to review these sensitive 
materials?
    Mr. Esquea. Absolutely, sir.
    Mr. Cartwright. And I think you just said that. Right?
    Mr. Esquea. Yes, sir.
    Mr. Cartwright. Sometimes people can't take yes for an 
answer. Can you articulate HHS' concern about producing copies 
of those sensitive documents, please?
    Mr. Esquea. Absolutely. Again, you held a very important 
hearing on CO-OPs back in February, and I think it was the 
Maryland insurance commissioner who said: It's one thing to 
talk about CAPs; it's another thing to make them public and 
make proprietary information that might be in the CAPs public 
so that they can, in turn, be used against the CO-OP 
themselves.
    These CAPs, as I understand it, do in fact have market-
sensitive information that could undermine their ability to 
compete in their individual marketplaces.
    Mr. Cartwright. I want to echo your concerns and those of 
the NAIC that releasing information of this nature could not 
only be misleading for thousands of consumers in the United 
States, but it also could create a damaging kind of self-
fulfilling prophesy for the future of the CO-OPs.
    There are those who want to believe that they're all bound 
for failure, but that's not really a reason to drive a stake 
through the heart of them by disclosing misleading public 
information based on incomplete information.
    So I thank you for your work, Secretary Esquea, and I 
encourage you to continue to work with the committee.
    And, with that, I yield back.
    Chairman Chaffetz. Will the gentleman yield?
    Mr. Cartwright. I yield back.
    Chairman Chaffetz. Okay.
    I now recognize the gentleman from Florida, Mr. Mica, for 5 
minutes.
    Mr. Mica. Did you want to yield to me for 6 and I can yield 
you 1? Thank you, Mr. Chairman.
    Again, we have agencies that do not comply with a request 
from Congress.
    Mr. Meyer, I've got a copy here of--it's a small copy; I 
usually give these to students. It's the Constitution of the 
United States. Are you familiar with that document?
    Mr. Meyer. I have read it, yes, sir.
    Mr. Mica. And I turn to, after the Preamble, ``We the 
people,'' to Article 1, Section 1. You may be familiar with 
that, too. It says: ``All legislative powers herein granted 
shall be vested in a Congress of the United States which shall 
consist of a Senate and House of Representatives.''
    Are you aware of that?
    Mr. Meyer. I am, sir.
    Mr. Mica. And other than this document, these few pages, 
the first--this is the Constitution. All laws emanate from this 
document, don't they?
    Mr. Meyer. Yes. And all laws emanate from the Congress----
    Mr. Mica. Yes.
    Mr. Meyer. --authorized by that document.
    Mr. Mica. I was here when we created, in fact, I helped 
author GSA. I helped name GSA and create it. We created that, I 
believe, before DHS. I spoke from this dais, when DHS came 
through here, and said: We shouldn't do it. It was a mistake to 
think it would be more efficient and economical to combine 21 
agencies and over 200,000 people.
    I turned out to be right, and we should dismantle that. We 
have the authority to do that, don't we?
    My point is that we created DHS. We created TSA. Do you 
think the Congress and this committee has the right to 
investigate misconduct and mismanagement at the TSA and DHS?
    Mr. Meyer. Yes. Congress has the right to conduct oversight 
of TSA and DHS and other agencies.
    Mr. Mica. Yeah. We created it; we have that right. But TSA, 
in fact, has failed--and DHS--every document request for 
production and also extensions of deadlines to produce 
documents of November 13, 2015; December 17, 2015; February 20, 
2016; March 4, 2016; March 29, most recently, 2016, a few weeks 
ago. You've either failed to produce the--well, you've failed 
to produce the documents, even under the extended deadline 
requests.
    Mr. Meyer. Congressman----
    Mr. Mica. Are you aware of that?
    Mr. Meyer. Congressman, TSA has produced over 21,000----
    Mr. Mica. Oh, I heard that.
    Mr. Meyer. --pages of documents.
    Mr. Mica. I heard that. I heard that. I clearly heard that. 
In fact, I wrote right at the top here, 21,000.
    And that's the game they play, for the new members. I've 
been on this committee longer than anyone, and I can tell you 
I've never seen agencies--whether you're Democrat or 
Republican, Independent--this is something that is the worst 
gaming I have ever seen. They'll do two things. ``We produced 
21,000 documents,'' but they didn't produce the documents we 
asked for. So they try to cloud the issues with saying, ``We 
presented 21,000 documents,'' but you did not produce the 
specific request that we have.
    Now, then the other thing they'll say, ``Oh, we produced 
the witnesses,'' but they produced low-level witnesses, okay, 
or people who have no clue. Well, you've seen them. You've seen 
them, Mr. Cummings. They have no clue.
    But this is fundamental to our responsibility of oversight. 
So this is the game that Mr. Meyer is playing and the others 
are playing. You've produced lots of paper. You've produced 
witnesses.
    On Friday--now, in January, we asked the TSA witness to 
come in and testify. We called them back on Friday, I'm told by 
staff. Are you aware of that?
    Mr. Meyer. Yes, I am.
    Mr. Mica. Are you aware what took place? Not only are they 
producing witnesses that won't be able to testify, those that 
are able to testify--members of the committee might know that 
there's a law that goes back, oh, practically to, what was it, 
2000--I'm sorry, 1912--Lloyd-La Follette, and this says you 
can't pay someone if they intimidate someone to not give 
Congress proper information.
    On Friday, your attorneys stopped a witness from giving 
information and testifying whether he was asked to decline 
giving information to this committee, which is in violation of 
Federal law. Are you aware of that?
    Mr. Meyer. I'm aware that he was asked to disclose a 
confidential attorney-client----
    Mr. Mica. Yeah. And that----
    Mr. Meyer. --communication, and he was asked not to. I'm 
happy to answer your question, sir.
    Mr. Mica. Again----
    Mr. Meyer. The question you asked him.
    Mr. Mica. Again, we asked him if he was asked, again, to 
withhold information that we were entitled to. We believe we're 
entitled to--under the Constitution, under the laws, we created 
TSA, DHS, and other--other laws that have precedent, we have 
the right to question that witness, and the law also says that 
we do not have to pay salaries to people who intimidate people 
who do not give us the information we request.
    And maybe we should start, Mr. Chairman, with withholding 
this gentleman's salary.
    I yield back.
    Chairman Chaffetz. I thank you gentleman.
    I now recognize the gentlewoman from Illinois for 6 
minutes. Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chair. I agree with the chairman 
and the ranking member that our committee has a right and an 
obligation to obtain documents to fulfill our constitutional 
oversight responsibilities.
    However, I also agree that we here on this committee have 
our own obligation to avoid making overly broad document 
demands to agencies. In many instances, by failing to ask for 
what we really need and instead demanding that agencies produce 
everything under the sun, we contribute to the very problem 
that leads us here today.
    One need to look no further than the committee's ongoing 
IRS investigation to see how massive, overly broad document 
requests can make it difficult for any agency to comply in a 
reasonable timeframe. In 2014, our former chairman issued a 
subpoena to the head of the Federal Election Commission 
demanding copies of all emails sent or received from Lois 
Lerner going back to 1986, a time when emails barely even 
existed.
    Mr. Meyer, DHS also received a subpoena from this committee 
last July. That subpoena demanded 18 categories of documents on 
the Secret Service. The time period for that subpoena was from 
January 1, 2013--I mean, 2000, excuse me, to July 9, 2015. 
Isn't that right?
    Mr. Meyer. Yes. That's my understanding.
    Ms. Kelly. So DHS is being forced to research a 15-year 
time period. Is that correct?
    Mr. Meyer. That's correct.
    Ms. Kelly. Can you briefly tell us what is involved in 
being required to produce documents that span a 15-year period?
    Mr. Meyer. Thank you, Congresswoman. I'd be happy to answer 
your question.
    Yes, as you can imagine, researching, finding documents 
going back 15 years can be quite an intensive task, 
particularly for an agency like the Secret Service, which is 
primarily almost exclusively composed of special agents who are 
trained in protection and law enforcement, not oversight 
response. As you can imagine, if you go back that far, they're 
not electronic records. They're, I believe, primarily hardcopy 
records. They're often stored offsite, not even in the same 
State. It can take a lot of work and a lot of time, but I'd 
like to say the Secret Service is committed to doing that and 
has been working to do that, even within the constraints it 
has, and has been producing documents. I believe they've 
produced documents something like 17 different times in 
response to that subpoena and the letter that preceded it.
    Ms. Kelly. Okay. Is it something that could reasonably be 
done in the 2-week deadline DHS received in the subpoena?
    Mr. Meyer. I don't see how something like that could be 
done in 2 weeks, ma'am.
    Ms. Kelly. And is it more because of what you just 
described, is that the reason, where there are hardcopies and 
things like, or is there--do you have the staff to do it or----
    Mr. Meyer. Yes. It's a very time-intensive endeavor. And, 
of course, staffing is at a premium, particularly at the Secret 
Service.
    Ms. Kelly. Okay. Mr. Chairman, if we're serious about 
addressing problems with agency delays in document production, 
it's imperative that we also examine ourselves. Instead of 
inundating agencies with overly broad document requests, we 
should focus on asking for only what we really, really need.
    I yield back.
    Chairman Chaffetz. Will the gentlewoman yield before she--
yield to me before she yields back?
    Ms. Kelly. Yes, I will.
    Chairman Chaffetz. The subpoena that we're talking about 
with the Secret Service was issued on July 9 of 2015. I did 
this in conjunction with the letters with Mr. Cummings. The 
letters and requests that we did were not being responded to. 
And one of the challenges that I think we have, for instance, 
looking at this document, it takes them so long at Homeland 
Security to respond to these documents because they take so 
much time to redact the very information that we need. So we 
get a document like this. This is about an investigation 
regarding a confidential--people in the Secret Service using 
assets that are dedicated for our confidential informants, 
using it for retirement parties and to reimburse their 
individual credit cards. And when they spend this much time, 
everything in blue is redacted, and they redact all that 
information, then we are left with a document that they've 
spent a lot of time on instead of just handing it over to us.
    It really does beg the question, why do they have to redact 
anything from the Congress? What is it that they're--that we're 
not supposed to see?
    In Atlanta, the President of the United States was found in 
an elevator with a person who had been arrested--arrested. And 
he had a gun on him, and the Secret Service didn't know about 
it. So we've asked for months upon months for that information. 
They sent us this document. All of the names are redacted. I 
mean, it's just list after list of redactions.
    And my question to members on this panel and to the 
Congress--to those that are testifying, what is it that they 
don't think they should share with Congress? Because I don't--I 
don't think there should be anything. They trust us with a lot 
of sensitive information. So, rhetorically, I ask, what 
information do you not want to see?
    I'll yield back.
    Ms. Kelly. And I'll take back some of my time.
    Chairman Chaffetz. Yes. Go ahead.
    Ms. Kelly. Mr. Chairman, it is true we wanted to budget 
documents going back 15 years, but we didn't call you accusing 
you of failing to comply. And I----
    Chairman Chaffetz. No. I appreciate it. You're--if the 
gentlewoman will yield. I think your heart and your passion is 
in the right direction, but I can--as far as the Secret Service 
is concerned, that is about as bipartisan as this committee has 
ever done. I don't know how to be any more bipartisan than what 
we're doing on the Secret Service, but the reality is they 
still have not provided the information to this Congress. They 
are still hiding stuff and documents from this committee. And 
we know it's in their possession, because they give it to us in 
redacted format, and that's what's outrageous and that--there 
is no justification for that. There is no justification for 
that.
    If it's confidential or if it's classified, then we'll deal 
with it in a classified setting, but we still have a right to 
get it. When we're doing an investigation of the Secret 
Service, and we've done so in as bipartisan manner as we can--I 
think I've made my point.
    I yield back.
    Ms. Kelly. And I don't have much time, but I know they have 
produced about 15,000 pages of--or copies of documentation, 
so--I'm done.
    Chairman Chaffetz. Thank you.
    All right. I now recognize the gentleman from North 
Carolina, Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Shelanski, let me follow up on where the chairman left 
off with regards to responsiveness, and where Mr. Connolly of 
Virginia, because the indication that you have given this 
committee is that you're doing all that you possibly can as 
fast as you possibly can to comply with the subpoena. Is that 
your sworn testimony here today?
    Mr. Shelanski. We are working as quickly as we're able to 
review the documents and produce them to the committee.
    Chairman Chaffetz. If you can please move that microphone 
just a little bit closer. Thank you.
    Mr. Meadows. So can you----
    Mr. Shelanski. Is that better?
    Chairman Chaffetz. Yes.
    Mr. Meadows. Can you----
    Mr. Shelanski. Closer?
    Chairman Chaffetz. Yes.
    Mr. Meadows. Can you explain to the committee why the 
initial request that I made of you for documents, why it 
required a subpoena to get you to comply? Because when we look 
at it, there were only 47 unique documents that we couldn't 
find online that you gave this committee between the initial 
response and June 4, only 47 that weren't found online, and 
that's one every other day. Is that the best you can do?
    Mr. Shelanski. When we started our production, we wanted to 
start with the material that was responsive but that would be 
publicly available, not necessarily----
    Mr. Meadows. In what realm would you think that this 
committee would ask you for documents that are publicly 
available?
    Mr. Shelanski. Well, some of them----
    Mr. Meadows. If we can go online, we don't need your staff 
to do that. We can find it. Why would we ask for that?
    Mr. Shelanski. And very quickly thereafter in our second 
production, we had documents that were certainly nonpublic, and 
we are in the process of preparing a substantial additional 
document----
    Mr. Meadows. Okay. You've given this committee a little 
over 1,300 documents that are unique in a year's time, 1,300, 
three a day. Is that the best that your staff can do? Is that 
the best that you can do, three a day?
    Mr. Shelanski. We have been working very hard to----
    Mr. Meadows. That's not the question. You're giving an 
answer to a question. Is that the best, yes or no? Is it the 
best you can do?
    Mr. Shelanski. We've been doing the best we can after what 
we've acknowledged, Mr. Meadows, was a slow start since----
    Mr. Meadows. Slow start? You got a subpoena and you didn't 
do anything for 4 months. That's not a slow start, Mr. 
Shelanski, that's a no start.
    Mr. Shelanski. It's not true that we didn't do anything, 
sir. The beginnings of a response to a subpoena first involve 
the search for the documents.
    Mr. Meadows. Okay. Stop right there. So you got the search 
for the documents. What is that universe?
    Mr. Shelanski. Again, I----
    Mr. Meadows. Because we have to know the universe in order 
for there to be a search. What was the universe?
    Mr. Shelanski. I--are you referring to the number of 
documents?
    Mr. Meadows. Yeah, the universe.
    Mr. Shelanski. I don't know what the number of documents 
was.
    Mr. Meadows. All right. You've given to me 100 percent of 
your documents, according to your testimony.
    Mr. Shelanski. My documents have been turned over. My 
documents were produced in the second--documents of mine. I 
mean, I think my----
    Mr. Meadows. Have they been turned over to the committee, 
100 percent of your documents?
    Mr. Shelanski. I think there are probably more of my 
documents that are being reviewed. I can't sit here today and 
tell you that a hundred----
    Mr. Meadows. Well, then how can you say that nothing has 
been given or held back from this committee, because your 
testimony is you've testified that 100 percent of your 
documents have been turned over? How many does that include?
    Mr. Shelanski. My documents were included--documents of 
mine, including documents that we were told were of greatest 
interest to this committee, were turned over in our second 
production prior to the subpoena.
    Mr. Meadows. Okay. Let me stop you, because you're 
mischaracterizing.
    Mr. Shelanski. Okay.
    Mr. Meadows. Six months we allowed you to prioritize. That 
did not come from this committee; that came from your staff in 
conjunction with this committee. We asked--we allowed you to 
start with the first 6 months.
    So, out of the 6 months of documents that you're about to 
talk about, what is the universe? How many total documents?
    Mr. Shelanski. I do not know, sir, what the total number--
--
    Mr. Meadows. So it's taken a year, and you still don't know 
how many documents?
    Mr. Shelanski. Because a review is ongoing. The search 
terms were very, very broad, and when a lot of the documents--
--
    Mr. Meadows. Mr. Shelanski--all right. Let me stop you 
again.
    Mr. Shelanski. Trying to answer, sir.
    Mr. Meadows. One year, we need to know, how many documents 
are you reviewing? What is the universe of that? You only have 
45 employees. I could probably come into your office and figure 
out the universe for the last 6 months within a few days.
    Mr. Shelanski. The search terms that we've been using--and 
we have advised your staff of what those search terms are--are 
very broad. In addition to the search that each person in OIRA 
has done, there are electronic searches that are run on all of 
these documents, and I do not know the full number of documents 
that that electronic search----
    Mr. Meadows. Okay.
    Mr. Shelanski. --has turned----
    Mr. Meadows. Mr. Shelanski, you and two other of your 
senior OIRA officials have said that you've turned over 100 
percent of your documents. You can't have it both ways. Either 
you turned over 100 percent and we know the number, or you 
haven't turned over 100 percent, or that testimony is false. 
Which is it?
    Mr. Shelanski. So I want to make very clear what the--what 
my testimony is, since I don't know what testimony you're 
referring to with the other OIRA officials.
    My testimony is that of the documents of mine that have so 
far been reviewed for production to the committee, they have 
gone to you unredacted, and there is no document that is 
identified by this committee that we have said we would not 
produce.
    Mr. Meadows. So do you know how many documents you've 
turned over, the number?
    Mr. Shelanski. I know that the total number of pages we've 
turned over to this committee----
    Mr. Meadows. No, no. Your 100 percent, how many is that--
5,000, 15,000--how many?
    Mr. Shelanski. I'm talking about the documents that we have 
reviewed and turned over to the committee so far, more than 
6,400 pages, most of it----
    Mr. Meadows. Mr. Shelanski, let me close with this: I am 
frustrated with your inability to answer questions that we've 
asked over and over and over. And you're here for sworn 
testimony today. These questions should not be a surprise to 
you. If you can't answer them, then say that you're not 
intending to answer them, so we will know to take the 
appropriate--but we keep asking. I asked in October, 5 months. 
It's a simple question. Can you not answer the question here 
today? Are you not prepared to answer?
    Mr. Shelanski. Mr. Meadows, I've been trying as sincerely 
as I can to answer your questions. When I can't answer the 
question or don't know the answer, I've told you that. I've 
tried to make clear exactly what my answer is. For example, my 
documents are being reviewed under the same standards as 
everybody else's----
    Mr. Meadows. How many documents are there?
    Mr. Shelanski. Of my total documents? Since I don't----
    Mr. Meadows. How many total documents have you turned over?
    Mr. Shelanski. And, again, I have made clear to you that I 
don't know the answer to what----
    Mr. Meadows. Mr. Chairman----
    Mr. Shelanski. --is.
    Mr. Meadows. --this witness is being unresponsive, and I 
think we need to deal with it appropriately.
    I yield back.
    Chairman Chaffetz. I agree with the gentleman.
    The gentleman yields back.
    I now recognize the gentlewoman from New Jersey, Mrs. 
Watson Coleman, for 5 minutes.
    Mrs. Watson Coleman. Thank you.
    Mr. Shelanski, as you know, one of the purposes of the 
Clean Water Act is to provide clean drinking water for the 
American public.
    Mr. Shelanski. That is correct.
    Mrs. Watson Coleman. Clean drinking water seems like an 
unobectionable goal to me, but many of my Republican colleagues 
have launched an offensive against the Clean Water Act rule, 
seemingly driven by their agenda to cripple the EPA. According 
to Speaker Ryan, the Clean Water Act is, and I quote, ``another 
example of Washington bureaucrats sticking their nose where it 
doesn't belong,'' close quote. Former Presidential candidate 
Marco Rubio agrees. He called the Clean Water Act rule a, 
quote, ``power grab'' and a, quote, ``brazen overreach.'' He 
said this, and I quote: ``We need to end this massive mandate 
once and for all and put a cap on all regulations so that 
Washington bureaucrats can be held accountable for the costs 
they are trying to inflict on our economy.''
    Were aware of these statements that have been made?
    Mr. Shelanski. I've heard various statements to that 
effect, yes.
    Mrs. Watson Coleman. Opposition to the Clean Water Act rule 
has not been limited to extreme rhetoric. In November of last 
year, the Republican-controlled Senate voted on S.J. Resolution 
22, a resolution that would nullify the rule.
    Were you aware of this situation, this resolution?
    Mr. Shelanski. Yes, I was.
    Mrs. Watson Coleman. Over the last three Congresses, the 
House has taken at least four votes directly related to the 
Clean Water Act rule. Now Republicans on this committee have 
turned to investigation in an effort to stop the rule. They 
have requested huge numbers of documents from EPA and the Army 
and your office, OIRA, and they want 9 years of material. All 
three agencies have provided a combined total of more than 
40,000 pages of documents to this committee thus far.
    Administrator Shelanski, is your agency cooperating with 
this committee?
    Mr. Shelanski. Thank you very much, Congresswoman.
    Yes, my agency is trying as hard as possible to cooperate 
with this committee.
    Mrs. Watson Coleman. Thank you, Mr. Shelanski. Will you 
continue to provide responsive materials?
    Mr. Shelanski. I pledge our absolute commitment to 
continuing to cooperate with this committee and as quickly as 
possible to getting them the material they need for their----
    Mrs. Watson Coleman. Thank you, Mr. Shelanski.
    During this committee's investigation into the Flint water 
crisis, Republicans harshly criticized the EPA for not stepping 
in earlier to save the people of Flint from Governor Snyder's 
ill-conceived emergency management system and his incompetence. 
Yet, in the context of the Clean Water Act rule, Republicans 
want EPA to take a backseat in the States. Representative Gosar 
said this, and I quote: ``That is why the House is acting this 
week by voting on the Regulatory Integrity Protection Act, 
which will prevent this blatant Federal overreach. This bill 
scraps the WOTUS rule and puts States, local governments, and 
private water rights holders back in the driver's seat for 
managing our water.''
    The hypocrisy of my Republican colleagues on the issue of 
clean water reveals their true motivation, and that is to 
destroy the EPA at any cost. It is sad that politics continues 
to trump the interests of the American people for something as 
basic as clean water, and it's a darn shame that you are being 
harassed by this committee for trying to do your job with the 
limited resources you have.
    With that, I yield back.
    Chairman Chaffetz. The gentlewoman yields back.
    We'll now recognize the gentleman from Florida, Mr. 
DeSantis, for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Mr. Meyer, we've, on this committee, done a lot of 
oversight over the Department of Homeland Security, how they 
released people who were in the country illegally and then 
those people ended up committing criminal offenses. And in the 
past, we've been able to get the figures from fiscal year 2013, 
fiscal year 2014, the number of people who have actually been 
convicted of crimes and then still released by DHS.
    There was a recent report in the Washington Times that 121 
individuals who were in the country illegally and were in 
custody of ICE were then subsequently released and then 
subsequently charged with murder, and the committee has tried 
to get information about that and other issues.
    On March 10, the committee staff requested information from 
ICE regarding the number of criminal illegal aliens who were 
released by DHS in 2015 broken down by crimes committed, like 
we've received in the past. Shortly thereafter, the staff also 
asked for individuals released, based on the Davis case, for 
2015 broken down by crimes committed, because that's one of the 
reasons that ICE will give us for why these individuals are 
released. And then the committee sent a letter, on March 17, 
2015, requesting both of these data sets, along with recidivist 
information for 2015, and the return date on that letter was 
March 31, 2016, but nothing has been provided to us.
    This is information that clearly the agency keeps, because 
they provided it in 2013 and in 2014, and we've made repeated 
requests for this information, and now 6 months after the 
fiscal year has ended and the Director of ICE is going to 
testify before this committee next week, no information has 
been received to date. We've been told repeatedly that the 
information is available but is in, quote, ``clearance.'' We 
haven't even received a briefing in preparation of the hearing.
    So my question to you is, when will the committee receive 
this information?
    Mr. Meyer. Thank you, Congressman. I am aware that such 
information has been made available in the past. I have not 
personally been involved in this issue currently. So I'm happy 
to take that question back and get you an answer, but I don't 
myself know that.
    Mr. DeSantis. Well, what would be--I mean, I'm just trying 
to figure out, what would be the reason to not have it 6 months 
after the fiscal year ended, when it's something that's been 
done routinely in the past.
    Mr. Meyer. Sir, I don't know. I'm happy to look into that.
    Mr. DeSantis. Okay. You know, I think it's an important 
issue. We are told that the administration is really focused on 
people who are coming here committing crimes, but when we get 
those breakdowns, you know, that suggests that that is not 
really the case and that there are folks who are in ICE 
custody, even people who have been convicted of criminal 
offenses and then released. And I think it's an important 
issue, because--you know, I wish we could prevent every crime 
from ever happening in the United States.
    Obviously, we have penalties to try to deter people, but 
when you actually have somebody who's here illegally and then 
they're in the custody of ICE, if ICE would simply have 
repatriated them, well, then the person who ended up being the 
victim of a crime would not have been the victim of a crime. 
And so that's one example where the government clearly could 
have prevented crimes from occurring. So I think it's a major 
issue of public safety.
    So I want you to take it back. We have the Director coming 
next week. We absolutely need to have that information in time 
that we can review it and then ask her pertinent questions 
about that.
    Mr. Meyer. Yeah. Congressman, I agree with you: it's an 
important issue. There are obvious public safety implications. 
I'm happy to look into it and get back to you.
    Mr. DeSantis. Okay. Great.
    And, with that, I can yield back the balance of my time.
    Chairman Chaffetz. Well, if the gentleman will yield.
    Mr. DeSantis. Yes.
    Chairman Chaffetz. Mr. Meyer, what do you believe Congress 
has no right to look at?
    Mr. Meyer. Congress, as I believe I discussed with 
Congressman Mica, is entitled to oversight under the 
Constitution and under various laws, so it is entitled to look 
into any matter that is legitimate oversight that serves a 
legislative interest.
    Chairman Chaffetz. What is legitimate oversight, in your 
mind?
    Mr. Meyer. Well, I don't know. I don't have a view as to 
what constitutes legitimate oversight.
    Chairman Chaffetz. Well, you used the word. I didn't----
    Mr. Meyer. Yeah. Because I believe that's what--the state 
of the law, but I think countless courts----
    Chairman Chaffetz. Who gets to decide what legitimate 
oversight is?
    Mr. Meyer. Well, the courts have called on the executive 
branch and the legislative branch to work together to try to 
accommodate each other's interests, and that's certainly what 
we try to do.
    Chairman Chaffetz. So what--I'm trying to--my time is 
short. Very specifically, name something you don't think the 
Congress has the right to see.
    Mr. Meyer. Well, courts have recognized the executive 
privilege, for example. So if something is clearly covered by 
the executive privilege----
    Chairman Chaffetz. And who can offer the executive 
privilege?
    Mr. Meyer. Who can offer it? The President typically would 
authorize----
    Chairman Chaffetz. So the President personally has to do 
that. And if done so----
    Mr. Meyer. Right.
    Chairman Chaffetz. --it is common practice to offer a log 
of those items. Correct?
    Mr. Meyer. I believe so.
    Chairman Chaffetz. And has the President issued or cited 
executive privilege on any of the issues that we have been 
talking about or any of the subpoenas or letter requests?
    Mr. Meyer. I can't speak to the other agencies----
    Chairman Chaffetz. No. I'm talking about just Homeland 
Security.
    Mr. Meyer. In the 5 years I've been at DHS, executive 
privilege has not been claimed on any item.
    Chairman Chaffetz. So there's no executive privilege, you 
can't cite a single thing Congress shouldn't see, so why do you 
redact materials?
    Mr. Meyer. Well, it depends on the material. Some material 
is simply not responsive to what the committee is asking about, 
because you can have a document that deals with the issue 
you're inquiring about and then also includes other issues.
    Chairman Chaffetz. Do you believe names are important?
    Mr. Meyer. It depends on the matter. There are certainly 
plenty of names we have provided to you.
    Chairman Chaffetz. See, this is why we think you're totally 
nonresponsive. You're playing a game of obstruction. I will 
explore this more.
    It's time now to recognize the gentlewoman from Michigan, 
Mrs. Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chair.
    I want to be on the record that I agree legitimate 
oversight is absolutely the right and the responsibility of 
Congress. As I've stated numerous times, I've had experience in 
Federal Government and management, and I do understand that 
when you receive a request for documents, that is a process 
that requires a certain amount of time.
    So, Mr. Meyer, the committee requested ICE to produce 
documents about the security of an employment-based visa 
program, known as EB-5 program. Specifically, the committee 
requested all documents and communications referring or 
relating to concerns about EB-5, including communication with 
other agencies, since January 1 of 2010.
    Can you briefly walk me through what's involved in 
searching and producing all documents and all communications 
related specifically to EB-5 program beginning from 2010?
    Mr. Meyer. Thank you, Congresswoman. I'd be happy to. As 
you mentioned, the EB-5 program is a program that has been the 
subject of considerable congressional attention going back as 
far as 2010 and certainly in 2012, 2014. And at that time, we 
responded to a lot of congressional oversight about it. We've 
testified at 16 hearings about----
    Mrs. Lawrence. That's not my question. I said, how long and 
what does it take to fulfill that request?
    Mr. Meyer. It takes the same sort of thing I discussed with 
your colleague, Congresswoman. It requires searching for 
documents, reviewing them, finding----
    Mrs. Lawrence. How do you search? How many people are 
involved? How many hours? Who gets the assignment? Is it 
random? Is there a designated person? How do you search?
    Mr. Meyer. So it depends on the issue, but let's take this 
issue, the EB-5 program. The EB-5 program is a program that is 
housed primarily at USCIS, United States Citizenship and 
Immigration Services, but this particular request focused more 
on ICE, Immigration and Customs Enforcement, but in order for 
the search to be complete on matters related to EB-5, we have 
to search in two different places, each of which is tens of 
thousands of employees.
    What we would typically do is try to identify as precisely 
as we can what the committee is looking for, try to talk to the 
committee staff so that we can be clear about that, and then go 
to the people who we think would normally have those documents, 
and try to identify them. There are also documents, I should 
say----
    Mrs. Lawrence. Do you have an internal person that deals 
only with providing responses to requests for information in 
your department?
    Mr. Meyer. So there are many people who deal with that in 
various----
    Mrs. Lawrence. Do you have a particular person? So when the 
request comes in----
    Mr. Meyer. So a request like that comes into ICE, and 
typically the Office of Congressional Relations at ICE as well 
as the Chief Counsel's Office would be involved. If there are 
equities involving the headquarters, then also our Office of 
General Counsel and the Office of Legislative Affairs at DHS 
might also be involved.
    Mrs. Lawrence. You know, Mr. Meyer, you clearly hear the 
sense of frustration. You have named a wide array of people 
responding to this. You know, it's bureaucracy, as we look at 
it as creating efficiency, sometimes creates bureaucracy and 
hinders the progress.
    It would seem to me if we really want to address this 
issue, because I truly do believe in legitimate oversight, you 
appear to be sincere in trying to get it, but when you have 10 
people at different departments, in some kind of way, we--
gentlemen, as you sit here today in your different roles, we 
need to find a way to streamline this process, hold some 
accountability, because if you're waiting for the legal 
department to respond to another department and to--everyone to 
come together, I clearly see where there could be balls 
dropped, there could be a delay in the process. And if you 
don't address that, we're going to continue to keep circling 
around in this debate. If you keep doing the same thing, you're 
going to keep winding up here hearing this conversation.
    Now, we all know that you have--staff has been reduced. You 
still must do your job, and I as a Member of Congress expect 
for you to do it, but you are not meeting the expectation. So, 
clearly, how could we do it quicker?
    Mr. Meyer. So may I respond, Congresswoman?
    Mrs. Lawrence. Yes.
    Mr. Meyer. I completely agree, and we are trying very hard 
to improve our performance. As I said in my opening statement, 
we have improved significantly over the past number of years. 
Our response time has gone down by 60 percent, and that's in 
the face of--I believe it's something like a 75 or 100 percent 
increase in the number of requests were getting specifically 
from this committee, and as I said, despite those increases, 
we've improved our responsiveness. There's definitely a lot 
more improvement we can do. We are working to do that.
    Mrs. Lawrence. I will tell you, if you don't give the 
information, you're going to get the requests probably broader 
and more frequently. We've got to improve.
    Thank you. I yield back.
    Chairman Chaffetz. I thank the gentlewoman.
    We'll now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    I was just surprised to hear Mr. Meyer agree that he was 
not doing the job that he should be doing, but my questions--in 
fact, I have several questions for Mr. Esquea, so let's get 
started here.
    Was it your decision to make certain materials available 
only through in-camera review?
    Mr. Esquea. I consulted with CMS, and I was part of the 
decisionmaking, yes.
    Mr. Walker. Can you repeat that again?
    Mr. Esquea. I consulted with CMS, and I was part of the 
decisionmaking, yes.
    Mr. Walker. You were part of the decision?
    Mr. Esquea. I approved that decision, yes.
    Mr. Walker. Okay. Thank you. What involvement from the 
White House, OMB, in regards to responding to the committee's 
requests? Was there any involvement from the White House?
    Mr. Esquea. Mr. Chairman, when there are--Congressman, when 
there are agency equities involved, I may consult with others. 
The ACA is an important priority of this administration, so 
they probably would like to know what I'm doing, so I may have 
advised them as to where I was going.
    Mr. Walker. Sure. Well, that wasn't really an answer, so 
let's hone it down a little bit more. Were there any 
conversations with Secretary Burwell?
    Mr. Esquea. The Secretary was aware of what we were doing, 
yes.
    Mr. Walker. When was the last time you talked with 
Secretary Burwell?
    Mr. Esquea. On this topic?
    Mr. Walker. Sure.
    Mr. Esquea. I'm not--I cannot remember. I don't think I've 
had a direct conversation with her about this per se.
    Mr. Walker. I think you just said earlier there's been some 
discussion, but you just don't remember exactly----
    Mr. Esquea. Well, I consult----
    Mr. Walker. --when it was?
    Mr. Esquea. I consulted with CMS and CMS leadership to 
understand exactly what the request was for, what did it 
entail, and what were the issues that were of concern.
    Mr. Walker. I see. How about Administrator Slavitt?
    Mr. Esquea. Yes. He was involved in the decisionmaking 
absolutely.
    Mr. Walker. You remember your conversation with him, but 
not specifically, so let me ask this: When was the last time 
you talked to Administrator Slavitt regarding this hearing?
    Mr. Esquea. I have not spoken with him regarding this 
hearing. I did have a conversation with the chief of staff, 
Mandy Cohen, who testified here in February, but that was at 
the beginning of the process when we first--when I first 
understood that the committee was interested in these 
documents.
    Mr. Walker. Okay. Now that we know there's been some 
influence in preparing for today's testimony, were there any 
questions that you were directed to not answer?
    Mr. Esquea. No, sir.
    Mr. Walker. Okay. Were there any materials that you were 
instructed not to agree to produce to the committee?
    Mr. Esquea. No, sir.
    Mr. Walker. Okay. Have there been any discussions at HHS 
about intentionally not producing materials to this committee?
    Mr. Esquea. No, sir.
    Mr. Walker. Okay. Who is making the final decisions about 
what does and does not get produced to this committee?
    Mr. Esquea. Congressman, I will consult, but, ultimately, 
it's usually my name that goes on these letters that go to the 
committee. So I help in those decisionmakings.
    Mr. Walker. You say ``usually.'' When are there decisions 
that your name doesn't go on the letter?
    Mr. Esquea. Well, if a letter goes directly to the 
Secretary, for example, and the Secretary wants to sign it 
herself, you know, she will convey what she would like to do.
    Mr. Walker. Understood.
    Mr. Esquea. But, by and large, since--I'm more likely to be 
in the weeds than the Secretary so that's why it's often more 
appropriate for me to sign the letter.
    Mr. Walker. What is the universe of materials--this may be 
my final question, because I want to certainly get a definitive 
answer----
    Mr. Esquea. Sure.
    Mr. Walker. --since you are--we are all under oath here. 
What is the universe of materials that has not yet been 
produced, in other words, types of documents, number of 
custodians, number of documents? Can you speak to that?
    Mr. Esquea. I think the best answer to that would be that 
I'm meeting with the committee staff--my staff is meeting with 
this committee staff later this week to determine what 
questions still remain in terms of--and answers.
    Mr. Walker. Legitimately, I believe we, along with the 
American people, have--we're obligated to be frustrated with 
this. It's been 5 months since the first request. You've had 
weeks to prepare, and I just don't understand why we're not 
being able to get the timely responses that we're needing to 
get. So let me----
    Mr. Esquea. Congressman, again, since we first got this 
request back in November, we have provided 31,000 pages of 
documents over six productions; we've provided an in-person 
briefing by our key CMS official, who provides oversight of the 
CO-OP program; we've provided a witness for a hearing for this 
committee; and we've had two in-camera reviews. So, again, I 
think we've acted fairly aggressively, and we've worked very 
closely with this committee.
    Mr. Walker. You've acted fairly aggressively under your 
definition, but it's like dealing with my children when I ask 
them for the truth, what we act--like to get or what we call 
the truth at our house is when they share all the information 
and not just partial information. I thank you for your time.
    With that, I yield back, Mr. Chairman.
    Chairman Chaffetz. If the gentleman will yield to me prior 
to yielding back, I'd appreciate it.
    Mr. Walker. Absolutely.
    Chairman Chaffetz. Mr. Esquea, why should we settle for an 
in-camera review?
    Mr. Esquea. Mr. Chairman, we are doing all that we can to 
be responsive and to respond to the questions of this 
committee.
    Chairman Chaffetz. No, no, no, no.
    Mr. Esquea. We are----
    Chairman Chaffetz. Wait a second. I issued you a subpoena, 
right----
    Mr. Esquea. Yes, sir.
    Chairman Chaffetz. --Health and Human Services a subpoena?
    Mr. Esquea. Yes, sir.
    Chairman Chaffetz. Do you feel an obligation to provide 
that information to this committee?
    Mr. Esquea. I believe I have an obligation to make sure you 
have access to this information, which I have done.
    Chairman Chaffetz. So you don't believe that a subpoena is 
compulsion to provide the documentation to the committee?
    Mr. Esquea. Sir, let's be clear. We are responding to the 
subpoena. We are making sure that you have access to these 
materials whenever you like----
    Chairman Chaffetz. Where----
    Mr. Esquea. --access.
    Chairman Chaffetz. Where do you get the legal justification 
to provide access as opposed to providing?
    Mr. Esquea. Sir, I'm at a disadvantage in that I'm not a 
lawyer, so I will answer the question this way.
    Chairman Chaffetz. Well, I'm at a disadvantage----
    Mr. Esquea. I will----
    Chairman Chaffetz. --but----
    Mr. Esquea. I--what I will say is that we are working very 
hard to make sure that you have access to this information 
whenever you like unredacted. This information will be 
available----
    Chairman Chaffetz. Is there a national security concern?
    Mr. Esquea. Oh, sir, I think you understand this is about 
market sensitivity and the ability of these CO-OPs to----
    Chairman Chaffetz. It could be embarrassing. It's just----
    Mr. Esquea. No.
    Chairman Chaffetz. --because of embarrassment?
    Mr. Esquea. No, sir. I don't think it's a question of 
embarrassment. It's just a question of we will--this--we have 
made these materials available to you. We will continue to make 
these materials available to you. It's a question of market 
sensitivity.
    Chairman Chaffetz. I'm going to come back this. My time has 
expired.
    I want to recognize the gentleman from Missouri, Mr. Clay, 
for 5 minutes plus.
    Mr. Clay. Thank you, Mr. Chairman.
    And, you know, today's hearing is to address the status of 
agency responses to committee document requests. I want to make 
clear that I fully support the committee's authority to obtain 
documents as part of our investigative function.
    However, we on this committee also have a duty not to send 
overbroad requests that actually cause the waste and 
inefficiency we are trying to root out.
    Mr. Esquea, last month, your agency received a letter from 
this committee seeking a large amount of information about art 
and artifacts possessed by your agency. The letter stated, and 
I quote: ``Art collections in Federal buildings bring creative 
and artistic beauty to public spaces and create attractive work 
environments for Federal employees and the public that they 
serve. These taxpayer-funded art programs, however, raise the 
potential for wasteful spending,'' end of quote.
    To your knowledge, have there been any specific examples of 
art possessed by your agency that have been identified by the 
committee as wasteful----
    Mr. Esquea. Congressman----
    Mr. Clay. --to your knowledge.
    Mr. Esquea. To my knowledge, no. And I know my walls are 
fairly sparse, so I'm not aware of any problems in this area.
    Mr. Clay. Is this a widespread problem at HHS?
    Mr. Esquea. I am not aware this is a problem, sir.
    Mr. Clay. Are any of you aware of any concerns that have 
been raised by the GAO of your agency's inspector--or your 
agency's IG about wasteful spending on your art or artifacts? 
Mr. Meyer?
    Mr. Meyer. No, sir.
    Mr. Clay. Mr. Shelanski?
    Mr. Shelanski. No, sir.
    Mr. Clay. Thank you.
    Mr. Esquea, you were not alone. In fact, the committee sent 
these letters to 27 different agencies.
    Mr. Meyer, DHS received one as well. Is that correct?
    Mr. Meyer. Yes, we did, sir.
    Mr. Clay. The committee's letter requested every document, 
and I quote, ``referring or relating to the number, nature, 
location, and monetary value of art and artifacts'' in your 
agency's possession.
    Were you aware that 26 other agencies received this 
request, including the U.S. Fine Arts Commission and the 
National Archives and Records commission?
    Mr. Meyer. I was aware that some other agencies had 
received it. I wasn't aware of who they all were.
    Mr. Clay. Okay. And the letter also asked for documents 
relating to the resources used by the agency to preserve art 
and manage exhibits, insurance premiums paid on art and 
artifacts, contracts related to art and artifacts, and pending 
purchases and acquisitions of art and artifacts.
    The Department of Homeland Security has 16 different 
operational and support components. Can you describe the type 
of resources that will be needed to comply with these requests?
    Mr. Meyer. Well, as I understand it, to fully comply with 
this request, we would have to look at every location that DHS 
maintains. I believe we are located in all 50 States. We have 
200 and--approximately 230,000 employees. We--just in the 
national capital region, we have over 50 locations. So it would 
be substantial, the number of resources required.
    Mr. Clay. Thank you for that response.
    The Department of Defense told the committee that 
responding to this request will require, and I quote, 
``reaching across the military departments and agencies to seek 
specific documents and detailed information from numerous and 
diverse defense facilities.''
    It seems like the real waste here is the resources agencies 
will have to expend to respond to this request. Again, let me 
be clear: If there is some specific allegation or abuse or if 
there is a case in which someone comes to us to allege waste, 
fraud, or abuse, that's fine. But this is a fishing expedition 
across the entire Federal Government, and I don't think that it 
serves the taxpayers well.
    And, you know, I'll yield to my friend, the chairman. Maybe 
you can explain why we are expending so many resources to do 
this, Mr. Chairman. I mean, look, the Department of Defense, 
don't you think they have some--you know, some more important 
things to do like fight terrorism?
    Chairman Chaffetz. One of the things sitting before us, the 
reason we have Homeland Security here, is our investigation 
into the Secret Service, and that's been as bipartisan as can 
possibly be.
    Mr. Clay. And then it gets into art and artifacts?
    Chairman Chaffetz. Well----
    Mr. Clay. What is that all about?
    Chairman Chaffetz. Again, let's focus on the hearing here. 
I think there is a good--there are millions and millions of 
dollars going out the door in art and artifacts. I will talk to 
you more about that, but the gentlemen that are sitting here 
before us have topics that are very relevant to the committee 
and I--Homeland Security, which you asked a question; Secret 
Service, it couldn't be more bipartisan.
    Mr. Clay. But, Mr. Chairman, don't you think those are kind 
of onerous requests that don't have anything to do with waste, 
fraud, and abuse? I think it is, to ask the Department of 
Defense.
    Chairman Chaffetz. The Department of Defense is not 
testifying today.
    Mr. Clay. I know it, but you requested that----
    Chairman Chaffetz. Yes. And I think----
    Mr. Clay. --information from them.
    Chairman Chaffetz. And when you see the conclusion of this, 
I think you'll be mystified as to how we're spending millions 
and millions of dollars going out the door and how it's out. 
That's one of the parts of our jurisdiction----
    Mr. Clay. Sure.
    Chairman Chaffetz. --is the Department of Archives.
    Mr. Clay. I don't have a problem with that, but I would 
love to discuss this further with you----
    Chairman Chaffetz. Happy to do so.
    Mr. Clay. --and to see the evidence and----
    Chairman Chaffetz. Well, we----
    Mr. Clay. --government----
    Chairman Chaffetz. Until the agency provides that 
information, we have reason to believe that there is a lot of 
waste, fraud, and abuse. And to ask these agencies to provide 
that information, which should be right at their fingerprints, 
tell us what's in your possession, that is not a difficult 
request.
    Mr. Clay. I will await the responses. Thank you.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from Georgia, Mr. Hice, for 5 
minutes.
    Mr. Hice. Thank you very much, Mr. Chairman.
    Just as the previous conversation was going on, we're all 
here because of waste, fraud, and abuse, and we're not getting 
the information we have to to deal with the problem that we 
need to deal with.
    Mr. Esquea, particularly HHS has failed, as these others as 
well, but HHS has not produced the documents from the subpoena. 
And, you know, I was--hearing Mr. Shelanski a while ago making 
a big deal about the reason for their delay and potential 
obstruction, whatever it may be, is because of review, it's 
just taking absolutely forever for them to review, and, quite 
frankly, that's made him an uncooperative and unresponsive 
witness here today. Do you use the same excuse that review is 
the reason that we're not getting the information requested?
    Mr. Esquea. Actually, Congressman, we are making materials 
available to the committee for their review.
    Mr. Hice. Then why are we here? Why are you here? If you've 
provided all the information, why are you seated here? Why are 
we having this hearing? It's because we don't have the 
information.
    Your excuse has been market sensitivities. What in the 
world is market sensitivities?
    Mr. Esquea. Again, I'm not an expert on the CO-OPs, but at 
your hearing in February, I believe our witness said that the 
types of information that were in these CAPs were related to 
plan pricing, vendor oversights, business strategy, that sort 
of thing, the type of thing that, if you would make public, 
could undermine the competitiveness of these CO-OPs. So, again, 
I don't run the CO-OP program, and I don't have firsthand 
knowledge.
    Mr. Hice. So what is the legal basis, then, for market 
sensitivities being the reason Congress can't get the 
subpoenaed information?
    Mr. Esquea. Well, we are--we have made this submission 
available to the committee. We're just asking the committee to 
work with us to continue with in-camera reviews of this 
information.
    Mr. Hice. Are market sensitivities exempted from a 
subpoena? Is that reason enough to exempt the information we 
request?
    Mr. Esquea. You are asking appropriate oversight questions, 
and we are trying to provide you those answers via in-camera 
reviews at----
    Mr. Hice. We're not asking for in camera. We're asking for 
the information to this committee.
    Mr. Esquea. And we are providing access to this information 
whenever----
    Mr. Hice. You're not providing the information; otherwise, 
we wouldn't be having this hearing.
    Mr. Esquea. Well, again, Congressman, we are doing all we 
can to provide the committee with access to this information.
    Mr. Hice. Well, God forbid that you provide this market-
sensitive information to the public market, free marketplace. I 
mean, you've got--we've got 23 CO-OPs: 12 of them have failed; 
21 of them have incurred net losses; 19 have claims exceeding 
premiums; 13 are not meeting enrollment. It's an absolute 
failure in every direction. There is no reason to hide behind 
market sensitivities as an excuse not to provide this committee 
with that which has been requested through subpoena.
    All right. Not only is it market sensitivity. I mean, you 
use that excuse, but the vast majority of documents have been 
withheld with absolutely no explanation whatsoever.
    Mr. Esquea. Sir, I'm not aware of any documents that have 
been withheld. We are working diligently to provide responsive 
document----
    Mr. Hice. Well, if you are that clueless as to not even 
know why you are here, you're here because we have not received 
the documents that have been requested or they've been redacted 
to point they're worthless.
    Mr. Esquea. I'm not aware of any documents that we've 
redacted, sir.
    Mr. Hice. All right. Well, there have been no documents 
that have been produced to this committee relating to 
recoupment of Federal funds from failed CO-OPs and exchanges.
    Mr. Esquea. I believe, sir, that the DOJ has the lead on 
that, so I'm not sure we have any information on it.
    Mr. Hice. So when is that information going to be 
available?
    Mr. Esquea. Again, I can circle back to see what DOJ can 
provide, but DOJ is the lead in terms of recoupment of those 
funds.
    Mr. Hice. It's just--so you don't have anything to do; 
that's out of your jurisdiction? Is that your testimony?
    Mr. Esquea. Well, my testimony is I believe DOJ has the 
lead for that.
    Mr. Hice. Well, that's not my question. Are you saying that 
it is outside of your jurisdiction to have that information for 
us?
    Mr. Esquea. I don't have that information, but, again, I 
can circle back to see--just to be clear about what it is I may 
have, but my understanding is DOJ has the lead for that, and 
they might be the appropriate place to ask that question.
    Mr. Hice. Mr. Chairman, I'll yield back, but, again, it 
just seems that we have all three witnesses today--they're 
being totally unresponsive to what we're trying to get to. I 
feel like we're running circles and chasing rabbits and getting 
absolutely nowhere.
    Chairman Chaffetz. Will the gentleman yield----
    Mr. Hice. Yes, sir.
    Chairman Chaffetz. --prior to yielding back?
    Mr. Hice. Yes.
    Chairman Chaffetz. Mr. Esquea, you cannot simultaneously 
sit and tell this committee and testify, ``We're doing all we 
can do,'' which was your quote, and still not provide them to 
this committee. If you were doing all you can do, you would 
actually provide those documents to the committee. Your 
assertion that an in-camera review is an appropriate response 
to a subpoena is fiction. There's no basis in law.
    Is it your testimony that the Health and Human Services 
Secretary, Ms. Burwell, has no intention of complying with the 
subpoena? Is that your testimony?
    Mr. Esquea. Mr. Chairman, my testimony is that we're 
working very hard to accommodate and understand the interests 
of this committee, including having access to this information.
    Chairman Chaffetz. Is there anything that is ambiguous--is 
there any ambiguity about the nature of the subpoena? You 
obviously have these materials. Correct?
    Mr. Esquea. We've made the materials available to the 
committee. So, yes, we have them.
    Chairman Chaffetz. No. You----
    Mr. Esquea. They're in our possession, sir.
    Chairman Chaffetz. But they're in your possession; they're 
not in our possession.
    Mr. Esquea. That's correct, sir.
    Chairman Chaffetz. Are you testifying that you have no 
intention of making those materials--giving those materials to 
the United States Congress?
    Mr. Esquea. I am--my testimony is that we are making this 
material available to the committee in camera----
    Chairman Chaffetz. It's not available to us unless you give 
it to us. And so my staff cannot review it at their leisure. 
Our members cannot access that information immediately by 
coming down to the committee rooms. Your definition is fiction. 
You're making it up. It's not part of the law.
    I'm going to ask you one more time: Are you or are you not 
going to take those materials and give them, as they're 
required under the subpoena, to the United States Congress, 
this committee?
    Mr. Esquea. Mr. Chairman, if there are further 
accommodations we can make, we will make them, and we will 
continue to work with----
    Chairman Chaffetz. If you will make them, you will comply 
with the subpoena and give them to us. Are you or are you not 
going to do that?
    Mr. Esquea. Mr. Chairman, we will continue to make these 
documents available to the committee. And we--and I--I simply 
ask that you work with us in this process.
    Chairman Chaffetz. I--no. I'm not in a negotiation mode. 
When I issue a subpoena to you, it's not a negotiation point. 
You owe these documents to the United States Congress based on 
this subpoena.
    Are you or are you not going to give this committee, the 
United States Congress, these documents that are under 
subpoena, yes or no? Yes or no?
    Mr. Esquea. We will continue to work with this committee, 
Mr. Chairman.
    Chairman Chaffetz. I recognize the ranking member, Mr. 
Cummings.
    Mr. Cummings. Thank you very much.
    Gentlemen, in listening to all of this, we have to have a 
balance here. And it seems, in listening, that this process at 
the very least can be speeded up.
    What can we do to speed up the process of getting the 
documents that the committee has asked for? What can we do to 
help you speed that process up? Talk to me. Come on. Don't be 
silent.
    Mr. Shelanski.
    Mr. Shelanski. Thank you, Mr. Cummings. We just seek to 
continue to have cooperative discussions with the committee 
staff so that we know what documents they are most interested 
in and we can know what to prioritize next in our review.
    As I tried to make clear in response to Mr. Meadows' 
statement, I have turned over all of my documents for review; 
all of our documents have been searched and are being reviewed; 
and we have been producing them to this committee as quickly as 
we can get through them.
    Mr. Cummings. But you had said a little bit earlier that 
when you first got the subpoenas, that you were kind of slow, 
your folks were kind of slow, and then you implied that you 
sped things up. And I'm just trying to make sure you're not 
moving in the slow gear again.
    Mr. Shelanski. No, sir.
    Mr. Cummings. And I'm trying to figure out why you were in 
slow gear.
    Mr. Shelanski. We've been speeding up. In fact, following 
up on our commitment to this committee in two recent hearings, 
we have increased our level of production, and we are working 
to--and I'm very hopeful we are nearing the stage where we will 
complete this phase and get good guidance from the committee 
staff on what they would like us to prioritize next.
    I would also note we have two senior officials--in regard 
to Mr. Mica's comment about agencies producing low-level 
officials--we are producing our very senior officials' 
information and availability for transcribed interviews first. 
We are starting at the top, and we are going to continue to 
work with the committee as quickly as possible to complete our 
production.
    Mr. Cummings. Let me get to the thing that concerns me most 
today, though I may come back to this if I have time, is the 
idea that the majority gets documents that we don't get. See, 
that--I'm going to tell you something: that really bothers me.
    Mr. Meyer, the committee has requested multiple document 
productions from TSA as well as transcribed interviews of 
employees of TSA. In your testimony, you stated, and I quote: 
``In the past 6 months, TSA has received 8 letters with over 30 
requests for information. In response, TSA has made available 
about 15,000 pages of documents. TSA staff conducted a 
briefing, and five TSA personnel have participated in 
transcribed interviews.'' Is that correct?
    Mr. Meyer. Yes.
    Mr. Cummings. Come on, Mr. Meyer. That's your testimony. 
Just say ``yes.''
    Mr. Meyer. Yes.
    Mr. Cummings. That is--all right.
    Mr. Meyer. Yes, sir.
    Mr. Cummings. Is TSA continuing to cooperate with the 
committee to produce documents in response to these requests?
    Mr. Meyer. Yes, sir.
    Mr. Cummings. On December 3, 2015, Chairman Chaffetz sent a 
letter to TSA requesting documents and communications relating 
to cases of alleged misconduct by executive-level TSA employees 
since 2012, including reports of investigation. On April 6, 
2016, TSA made available for in-camera review unredacted 
versions of the reports. TSA also made available other 
documents relating to proposed disciplinary actions, employee 
responses, and final administrative decisions on 13 of 17 
cases. Yesterday, the committee was notified that the remaining 
four cases are now available for review. Is that correct, Mr. 
Meyer?
    Mr. Meyer. Yes. That's my understanding.
    Mr. Cummings. TSA has made productions to the majority, Mr. 
Meyer, without simultaneously making productions to the 
minority. Now, when you started your statement, I paid special 
attention to your written statement, and you said it here today 
about all your work, working on both sides of the aisle, 
working all these years in Congress, and being over the 
producers of the documents. You know the significance of 
getting documents to the majority and the minority 
simultaneously, do you not?
    Mr. Meyer. Yes, sir.
    Mr. Cummings. What's that about? Help me with that. Because 
let me tell you something. Let me tell you something: I want--
my job in part is to make sure that my staff has the same 
documents that the majority has. Now you have got to explain to 
me why it is, why it is, that the majority gets documents and 
we don't. Help me with that.
    Mr. Meyer. There is no explanation. There is no excuse, 
sir. I've only recently learned that that was happening. It was 
an error. We will share with you every document we share with 
the majority.
    Mr. Cummings. How was that an error?
    Mr. Meyer. I don't know, sir. I can find out.
    Mr. Cummings. I don't like this approach at all. I think 
the TSA should provide Democrats with the copies at the same 
time it provides them to Republicans. So you agree with that?
    Mr. Meyer. I do, sir.
    Mr. Cummings. How soon can my staff get the documents that 
they may not have?
    Mr. Meyer. As soon as we can figure out what they are 
missing.
    Mr. Cummings. How did you find out, by the way? How did you 
find out that we were not getting documents?
    Mr. Meyer. I recently learned in conversation that you had 
not gotten--I believe there were cases where you had and other 
cases where you hadn't. We're working to fix that, if it 
already hasn't been fixed.
    Mr. Cummings. So you will ensure that, in the future, the 
minority will receive all the documents the TSA transmits to 
the committee at the same time they are transmitted to the 
majority?
    Mr. Meyer. Yes, sir.
    Mr. Cummings. Will you ensure that they are delivered 
directly to the minority's office and not to the majority's 
office with the expectation that the majority will have to 
provide them to the minority? That creates a delay. Do you 
follow me?
    Mr. Meyer. Yes.
    Mr. Cummings. I trust my friend and his staff, but they get 
them one day. Then they may have to copy, do whatever, and I 
don't know when we'll get them. We deserve to have them at the 
same time.
    And let me tell you something: if I was on the other side, 
I would be making the same argue.
    Hello?
    Mr. Meyer. Yes, sir. We'll send them wherever you would 
like us to send them.
    Mr. Cummings. I'm also somewhat disturbed that TSA has 
provided official briefings to the committee's majority staff 
that excluded minority staff. What's that about? Did you know 
about that?
    Mr. Meyer. I don't know if I did, but we will fix it, sir.
    Mr. Cummings. So do you agree that the minority staff 
should be included in briefings that TSA provides to this 
committee?
    Mr. Meyer. Yes, sir.
    Mr. Cummings. Will you ensure that, in the future, the 
minority staff of this committee is invited to briefings that 
TSA provides to the committee?
    Mr. Meyer. Yes, I will.
    Mr. Cummings. You got to tell me how that happens. How does 
that happen? Let me tell you something. I have got hardworking 
employees. They give their blood, their sweat, their tears, and 
when these kinds of things happen, it really bothers everybody. 
You know why? Because they can't do their job.
    Mr. Meyer. I agree, sir.
    Mr. Cummings. So is somebody not telling you something on 
your staff?
    Mr. Meyer. TSA does not work for me, sir, but I work with 
them, and we are going to improve communication to make sure 
these kinds of errors don't take place again.
    Mr. Cummings. I want to thank you, Mr. Meyer, for your 
willingness to be here today to discuss TSA's responsiveness to 
the committee's request in documents and for your commitment to 
ensuring that TSA responds to this committee's oversight in a 
bipartisan way.
    And, with that, I yield back.
    Chairman Chaffetz. I share and concur with the frustration 
that Mr. Cummings is expressing. The minority staff has less 
staff than we do in the majority, and certainly Homeland 
Security has, by the tens of thousands, in fact, hundreds of 
thousands, more people than we do on either of our staffs here 
in Congress. And the unprofessional nature in which their 
responses have been happening is totally and wholly 
unacceptable. And I stand by Mr. Cummings in that.
    Mr. Cummings. Mr. Chairman?
    Chairman Chaffetz. Yes.
    Mr. Cummings. I want to thank you for supporting me on that 
because I just think it's so important that we all work 
together. We may have our differences of opinion, but we need 
to be working from the same information. Thank you.
    Chairman Chaffetz. Totally agree. There is a basic 
principle in equal access. The information is pivotal to our 
doing our jobs, both as Members and the staff. Their job is 
hard enough, let alone trying to figure out which documents are 
being hid where.
    I now recognize the gentleman from Georgia, Mr. Carter, for 
5 minutes.
    Mr. Carter. Thank you, Mr. Chairman, and thank each of you 
for being here.
    Mr. Esquea, I've got a question that's kind of unrelated to 
the subpoena from February 17. I don't know about you guys; I 
don't know what you all do, but I kind of want to base my 
opinions on my personal experiences. So I want to share a 
personal experience with you that I had with Secretary Burwell 
that happened right here in this room in a hearing on March 
22--excuse me. The hearing was before March 22. I sent a letter 
to her on March 22.
    Now, we had hearing here with Secretary Burwell. During 
that hearing, I asked her about office-use compounding of 
prescription medication. She at that time told me erroneously 
that it was allowed. And I knew it was wrong, and I cannot tell 
you whether she did it intentionally or not. I know that you 
all take oaths, and the only thing we can do on this committee 
is to hope that you tell us the truth. But she was absolutely 
wrong in what she told me.
    So she told me it was allowed, and I knew it wasn't 
allowed, and I knew that the Agency was considering what they 
were going to do in the near future, and I wanted to have input 
on that. That's why I asked her about it.
    So she suggested, she said, have your staff send my staff a 
letter. In fact, she looked behind her, and her staff said: 
Yeah, yeah, do that.
    That's when, on March 22, we sent the letter outlining our 
concerns about prescription compounding, about compounding for 
office use. We sent her that letter on March 22, and I thought 
it was a pretty responsible timeframe that we did that and 
asked for a response within 10 days.
    Well, on April 11, we didn't have any response, so we 
called her office: Why haven't you responded?
    Well, their response was to my office: FDA, HHS received a 
letter and will be sending a response as soon as possible.
    Well, okay. Yesterday, guidance was issued for this 
particular situation, for office-use compounding. And in that 
guidance, it disallowed it.
    Now, I still haven't heard. I still haven't had a response. 
I still haven't had a response from the office yet on this 
particular issue that I wanted to have input. I am a 
pharmacist, the only pharmacist in Congress. I felt like, and I 
feel like, I should have some input on this. Well I didn't. I 
thought after she testified in this committee--and, again, I 
can't look into your hearts and tell you: Yeah, you did this 
intentionally--or didn't.
    I just have to believe that when you take that oath, you're 
telling me the truth. She was wrong, and I knew she was wrong, 
and yet she said: Let's follow up with staff.
    I agreed. And I did that, and yet still the guidance comes 
out before she responds to me. Now what am I to think? I sit 
here, and I listen to all of my colleagues talking about the 
fact that we're lacking communication, and I'm thinking: Yeah, 
that's been my experience.
    Tell me why I shouldn't feel this way. Tell me why I 
shouldn't agree with everything that's been said here by my 
colleagues today, that communication is lacking, is suffering. 
My question is, is it intentional or unintentional? Because I 
know they're right: it is lacking. I have proof. I have 
personal proof, personal experience, and that's what I go on. 
The question is, is it intentional? Did she intentionally not 
respond to my letter until after the guidance was issued?
    Mr. Esquea. Congressman, I can assure you that was not 
intentional. Or, in fact, I remember the back and forth. I 
remember the exchange. I remember the conversation with you, 
and it was my understanding, after the hearing, that FDA was 
going to reach out to you to have a meeting. If that did not 
happen, that would be my fault. I should have followed up with 
them, but it was my understanding they had already set up a 
meeting to discuss this with you.
    Mr. Carter. Well, guess what? It didn't happen. And guess 
what? The guidance has already been issued.
    Let me tell you what happens. I go home, and I'm the 
Congressman. And people ask, my constituents, they want to 
know: Why did you all do this? Why did you do that?
    And I'm saying: I don't remember doing that.
    And then I go and I say: It wasn't us. It was the Agency. 
It was the Agency that promulgated these rules, that passed 
these rules, that's having such a big impact, but I got to 
answer to it. I got to answer to the pharmacists about this. I 
did my best to have input before it was issued, but I was 
denied that. What do you want me to tell them? You see what a 
quandary this puts me in?
    Mr. Esquea. Yes, sir.
    Mr. Carter. Let me tell you: That is poor, and I don't 
appreciate it. Listen, I don't need any help in looking bad. I 
can do that all by myself. Tell me.
    Mr. Esquea. Congressman, you're right. I apologize. I'm 
more than happy to discuss this further. But that was not 
intentional. I remember the exchange. I had thought that FDA 
was going to follow up with you to have a conversation. If that 
did not happen, that's on me. I should have followed up with 
them. My apologies to you. I'm more than happy to continue 
having this conversation. I can assure you Secretary Burwell 
did not do that intentionally. If there is any fault there, it 
would be mine.
    Mr. Carter. You know, I want to believe you. I really do.
    Mr. Chairman.
    Mr. Cummings. Would the gentleman yield for just a second?
    Mr. Carter. I yield.
    Mr. Cummings. First of all, I agree with the gentleman. He 
deserves--I remember that. I spend a lot of time on these 
issues that he's talking about, these pharmaceutical issues. 
But there's one thing, Secretary Burwell, of all the 
Secretaries I think, is probably one of the more responsive. 
And she is. She has been very responsive. And so, you know, you 
cannot, if it's your responsibility to have reminded her, do 
whatever, you need to do that. Okay? I mean, I can get--I 
usually can get a hold of her when I can get a hold of nobody 
else. So I think you're making her look bad, to be frank with 
you. All right? I don't usually say those things, but I just 
want to be fair to her, too. All right? So I'm hoping, 
unfortunately, you've already admitted that you screwed up. We 
got to do better than that, though. Because the gentleman--the 
questions that he raised are legitimate questions. They are 
important questions, and they go to a lot of the things the 
American people are most concerned about, and he deserved an 
answer. I thank the gentleman for yielding.
    Chairman Chaffetz. I thank both gentlemen. I will now 
recognize the gentleman from Alabama, Mr. Palmer, for 5 
minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Shelanski, you clerked for the U.S. Court of Appeals 
for the D.C. Circuit. You also clerked for the U.S. District 
Court in Philadelphia, and later for Justice Scalia, the U.S. 
Supreme Court. In your role as a legal clerk, and even in your 
role in your private practice, wouldn't it be reasonable to 
believe that you are familiar with subpoenas? That's a yes or 
no.
    Mr. Shelanski. I had never dealt with one prior to this.
    Mr. Palmer. You had never dealt with one prior to this. But 
you're a lawyer. You understand how it works.
    Mr. Shelanski. Yes, sir.
    Mr. Palmer. I doubt seriously that Judge Williams or Pollak 
or Scalia would have had the patience that this committee has 
had in this process. I want to ask you, in the last hearing, 
Ms. Fucile said that four document custodians had been 
identified to date. Since then, through interviews conducted by 
this committee, we have learned that there are at least four 
additional OIRA staff that were responsible for the review of 
the rule not previously identified by OMB or OIRA. Can you 
explain why you only identified half of the custodians to the 
committee?
    Mr. Shelanski. When we began our document review, began to 
produce documents to this committee, we focused initially on 
the proposed rule stage, given the request, as we understood 
it, and the guidance we received from committee staff. So we 
identified the principal custodians that we thought were most 
relevant there. As we've moved forward and the committee 
expressed interest in the additional custodians, we have 
prioritized those and, indeed, produced those documents in our 
last production.
    Mr. Palmer. Well, should the committee be prepared to learn 
of additional names of potential document custodians?
    Mr. Shelanski. It is my belief that if there are any 
additional custodians, they have had a far lesser role and 
would not have been the principal people involved with 
reviewing the rule.
    Mr. Palmer. Well, how long would it take to ask everyone at 
OIRA, did you work on the Waters of the U.S.?
    Mr. Shelanski. We have done that. The problem is that----
    Mr. Palmer. You did? Well, why did it take over a year to 
find out that instead of four, there were eight?
    Mr. Shelanski. The initial identification of four was 
related to our focus on the period of the proposed rule and 
those were the relevant custodians. The additional ones that 
have been identified are as we have moved to reviewing 
documents in the final rule stage and, again, were people who I 
think really had far lesser roles. Sometimes documents are----
    Mr. Palmer. Shouldn't you have let the committee decide 
whether or not they wanted to have information about everyone? 
I mean, everyone is everyone.
    Mr. Shelanski. No, and it is our duty to be responsive in 
that regard.
    Mr. Palmer. But you didn't.
    Mr. Shelanski. Well, we've been reviewing----
    Mr. Palmer. You've been delaying.
    Mr. Shelanski. No, sir. In all sincerity, we have long 
acknowledged that our initial response was slow. If you look at 
our productions, our last five productions, we have committed 
to regular productions, and we have met those productions. We 
have also committed to making our productions faster to the 
extent we can. Since my last hearing, we have given our largest 
production to date. It is my hope we are moving very----
    Mr. Palmer. Okay. Let me move to something else. In the 
March 3, 2015, hearing before this committee, several members 
asked you to produce documents related to OIRA's review of the 
rule. Did OMB accompany you to that hearing? Did anyone come 
with you?
    Mr. Shelanski. I'm sorry. To my March 15 hearing?
    Mr. Palmer. The March 3, 2015, hearing.
    Mr. Shelanski. March 3, 2015, hearing.
    Mr. Palmer. Thirteen months ago.
    Mr. Shelanski. Oh, okay. Okay. Sorry about that, 2015. And 
the question is, did anyone from OMB accompany me to that 
meeting?
    Mr. Palmer. Right.
    Mr. Shelanski. I generally have some people who come with 
me. I don't specifically recall who might have been here at the 
time.
    Mr. Palmer. Among those who came with you, did you instruct 
OIRA staff to initiate a search for the responsive records?
    Mr. Shelanski. We, as soon as we received the request for 
the documents, we immediately, I personally immediately 
instructed OIRA staff to search their records.
    Mr. Palmer. Did anyone tell you not to initial a search at 
that time?
    Mr. Shelanski. No, sir.
    Mr. Palmer. Well, I know that the frustration of the 
committee is after the hearing, committee staff followed up 
with your staff on numerous occasions about this request but 
received no response. And I think we would like know and I 
think all of us on both sides of the aisle would like to know 
why there has been no response.
    Mr. Shelanski. I think that there has been constant 
engagement between our staff and your staff. And, in 
particular, I would point that, since December, we have 
produced five regular document productions and are hard at work 
on our next one. Our latest one was just 2 weeks ago. We have 
prioritized the periods of review and the custodians that the 
committee has expressed most interest in. I would also note 
that the three most senior officials at OIRA have voluntarily 
agreed to transcribed interviews, two of which have already 
occurred, including the person most responsible for the review 
of both the proposed and final rule, and that my own 
transcribed interview is being scheduled for a time, I think, 
fairly soon to come.
    Mr. Palmer. Well, here's my problem with this, and I think 
the problem that a lot of us on the committee are having, is 
that there seems to be a pattern here of running out the clock 
and, again, going back to your experience at OIRA, even though 
you never participated, been involved with a subpoena before, 
as a lawyer, you understand that a request for documents is 
something that most people, judges, lawyers, expect to be fully 
complied with, and it's throughout the administration. We have 
seen this time and time again. And I just, frankly, have a hard 
time believing there's been a good-faith effort to produce the 
documents in a timely manner.
    Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Wisconsin, Mr. 
Grothman, for 5 minutes.
    Mr. Grothman. Thank you. I have another question here for 
Mr. Meyer and this goes to another thing where just, you know, 
the response of your agency seemed a little bit unusual. You 
mentioned during your testimony a situation in which Homeland 
Security flew an immigration witness all the way from Texas to 
Washington to give the committee a day-long interview. And at 
the beginning of the interview, committee staff were informed 
that the witness would not be able to answer questions related 
to the vulnerabilities of the EB-5 investor program. The 
working group was clearly identified in the committee's letters 
as a central--as a major reason why we wanted to talk to this 
guy. Can you give us what was the basis for refusing to allow 
the witness to speak about his staff's involvement in the 
interagency EB-5 working group?
    Mr. Meyer. Okay. So, just to be clear, almost the entire 
day was about the vulnerabilities in the EB-5 program. But 
you're inquiring about the interagency working group?
    Mr. Grothman. Well, we were informed that the witness would 
not be allowed to answer committee's questions regarding the 
working group.
    Mr. Meyer. Right. So the process, the interagency working 
group process is a process, and this goes back probably 
decades. It's a longstanding administration position, 
Democratic, Republican, not to discuss interagency processes 
like that one. And so what we suggested, I believe what our 
attorney suggested, is that we sit down with the staff and try 
to get the information to the staff that they need in a 
different way.
    Mr. Grothman. Was productive? Why wouldn't you have told 
the committee upfront before you flew this person all the way 
from Texas to Washington that given, I think, the working group 
is clearly one of the reasons why they wanted to talk to the 
witness, why wouldn't you have told them upfront that we're not 
going to talk about that?
    Mr. Meyer. I believe in conversations with the staff 
leading up to that, we did make clear that there would be some 
areas that the witness would not be able to speak about. But, 
you know, the interview went all day, and so they had a 
productive day.
    Mr. Grothman. I guess that depends on who you talk to.
    Homeland Security has produced so far only one 8-page memo 
to the committee on this topic. Can you know let us know when 
Homeland Security will produce the rest of the documents that 
we asked for in January?
    Mr. Meyer. We're going through those requests right now and 
trying to get more to the committee. A large part of what was 
requested in that letter were for drafts, and again, going back 
decades, if not centuries, it's not the policy of the executive 
branch to share deliberative material like that with the 
legislative branch. But you have, the committee does have the 
final document, the signed document, and other final documents.
    Mr. Grothman. Okay, well, we have been waiting like 3 
months. Can you let us know about when you think we're going to 
get the documents we have been asking for?
    Mr. Meyer. I'll have to go back and talk to ICE about when 
we'll be able to get more documents.
    Mr. Grothman. Okay. Can you let us know soon? Thank you.
    I'll yield the remainder of my time to the chairman.
    Chairman Chaffetz. Thank you.
    I'll now recognize myself. Mr. Meyer, a series of questions 
for you. Are you aware of regular meetings at the White House 
involving legislative affairs officials from various agencies?
    Mr. Meyer. Yes, I believe those do occur.
    Chairman Chaffetz. Have you ever attended these meetings?
    Mr. Meyer. Legislative Affairs officials. I don't go to the 
general OLA type meetings because I'm in the General Counsel's 
Office.
    Chairman Chaffetz. Do you know how often the White House 
holds these meetings?
    Mr. Meyer. I do not.
    Chairman Chaffetz. Do you know who coordinates these 
meetings at the White House?
    Mr. Meyer. I do not.
    Chairman Chaffetz. Do you know what the purpose is?
    Mr. Meyer. I assume they discuss legislative affairs, but 
beyond that, no.
    Chairman Chaffetz. Do you coordinate requests from Congress 
with the White House?
    Mr. Meyer. As with any agency, we will coordinate with the 
White House when they have equities in a request.
    Chairman Chaffetz. What would they not have equities in?
    Mr. Meyer. You would have to ask them that.
    Chairman Chaffetz. I'm asking, what equities does the White 
House have at Homeland Security?
    Mr. Meyer. Well, for example, we have requests from you 
relating to the Vice President and his residence at the Vice 
President's Office, and the White House has equities in that.
    Chairman Chaffetz. So what role does the White House play 
in providing guidance on document production?
    Mr. Meyer. As with any agency, be it DOJ, HHS, what have 
you, we will coordinate with them when they have equities, and 
we will consult with them, and they'll be part of our 
consultative process in deciding how to go about responding.
    Chairman Chaffetz. So, outside of the legislative affairs, 
are there similar meetings at the White House for Department 
counsel, and have you ever attended any of those meetings?
    Mr. Meyer. I have attended on occasion meetings.
    Chairman Chaffetz. How often do those happen?
    Mr. Meyer. I haven't been to the White House for a meeting 
with White House counsel in quite some time. I would say, on 
average, a few times a year, I would go over there.
    Chairman Chaffetz. But how often do the meetings happen? 
Even though you may have gone there only a few times, how often 
do the meetings happen?
    Mr. Meyer. Oh, I don't think there's a regular meeting of 
counsel in the way there is with Legislative Affairs.
    Chairman Chaffetz. Last Friday, the committee conducted a 
transcribed interview of a TSA witness whose testimony the 
committee requested in January. You're familiar with this 
interview?
    Mr. Meyer. Yes, I am.
    Chairman Chaffetz. When the committee attorneys asked the 
witness whether they had been discouraged from speaking with 
the committee, both the agency and the Department attorney 
repeatedly refused to allow the witness to answer the question, 
even going so far as to interrupt when the witness appeared 
willing to answer. How does the Department justify this?
    Mr. Meyer. As I told Mr. Mica, the questions were 
requesting him to discuss what attorneys advised him. That's 
subject to the attorney-client privilege, so our attorneys 
asked him not to respond and suggested that we discuss it in a 
different setting and try to get the committee the information 
they want. If you'd like, I can answer the broader question 
that I think they were asking right now.
    Chairman Chaffetz. No. I want to get specific to that so-
called attorney-client privilege. It's the practice of the 
House of Representatives to leave to the congressional 
committee the determination of whether to recognize claims of 
attorney-client privilege or attorney work product. In this 
case, there is not a compelling reason to recognize the 
privilege.
    Further, I would go on to say I believe you're intimidating 
somebody. I believe it's intimidating to have attorneys saying: 
Don't answer that question.
    I'll go back to my original--or the question I asked you 
earlier. What is it that you think that we shouldn't be able to 
see here in Congress?
    Mr. Meyer. Well, to this point, it's a longstanding 
position of the executive branch, going back probably to before 
I was born, that we will not share attorney-client 
communications with the legislative branch. I recognize that 
the legislative branch takes a different position. That's a 
longstanding dispute between the branches.
    Chairman Chaffetz. What other guidance and directives did 
you give to the witness prior to them coming and testifying 
before Congress?
    Mr. Meyer. I met with the witness once. That's the only 
time I've ever met him. And we discussed what to expect in a 
transcribed interview.
    Chairman Chaffetz. How long did you meet with him?
    Mr. Meyer. I don't recall. I believe it was an hour, an 
hour and a half.
    Chairman Chaffetz. So you spent an hour to an hour and a 
half prior to testifying before Congress. What direction or 
directives did you give him?
    Mr. Meyer. I'm not going to discuss attorney-client advice.
    Chairman Chaffetz. The attorney-client privilege, whether 
you recognize it or not, belongs to the witness, not to the 
Department. Correct?
    Mr. Meyer. No. We were representing him in his official 
capacity. We offered him the option of having personal counsel. 
He chose to use agency counsel, so my client is the Agency.
    Chairman Chaffetz. Was he pleading the Fifth?
    Mr. Meyer. I was not in the room. I don't believe he 
pleaded the Fifth at the transcribed interview.
    Chairman Chaffetz. Did anybody in the Department--did the 
Department attorney contact you or anyone else in your office 
during the interview to seek guidance on this issue?
    Mr. Meyer. I don't recall. They may have.
    Chairman Chaffetz. What was so invasive about that question 
or questions that you felt it imperative to make sure that 
Congress never heard the answer?
    Mr. Meyer. I think the attorney-client privilege is well 
enshrined in the history of the United States and going back to 
English common law and generally respected by the courts and 
the law.
    Chairman Chaffetz. Are you familiar with the anti-gag 
rider?
    Mr. Meyer. I'm not, sir.
    Chairman Chaffetz. You're not?
    Mr. Meyer. No.
    Chairman Chaffetz. You're not familiar with the law that 
says you cannot--you're not familiar with that----
    Mr. Meyer. Are you speaking about the law that was the 
subject----
    Chairman Chaffetz. The rider states that no appropriations 
are available to pay the salary of any Federal employee who, 
quote, ``prohibits or prevents or attempts or threatens to 
prohibit or prevent,'' end quote, any other Federal employee 
from, quote, ``having any direct oral or written 
communication,'' end quote, with Congress.
    Mr. Meyer. Yes. Let me correct. I was not familiar with 
that name for it, but I am aware of that legislation.
    Chairman Chaffetz. The Lloyd-La Follette Act of 1912.
    Mr. Meyer. I did not know it was from 1912 or by Mr. La 
Follette, but----
    Chairman Chaffetz. I'm assuming that was from before you 
were born.
    Mr. Meyer. I believe it is.
    Chairman Chaffetz. And that was what you stated, since 
before you were born. We will further explore this, but I think 
you're intimidating the witness. I think you're providing 
counsel that is inconsistent with the law, and I think, as 
such, anybody who is providing that information should have 
their pay duly docked, and the government should recover that.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Meyer, do you think that you or your office was 
intimidating anyone?
    Mr. Meyer. Not at all, sir.
    Mr. Cummings. And I take it that you--is this a standard 
practice before a witness comes up, to talk to them and----
    Mr. Meyer. Yes. And if I may, I might add also that he 
requested that agency counsel be there. If he were intimidated, 
I don't think he would have done so.
    Mr. Cummings. Did you get any indication from--did you see 
anything that would lead you to believe that he was 
intimidated?
    Mr. Meyer. Nothing at all, sir.
    Mr. Cummings. I don't have anything else.
    Chairman Chaffetz. Just the last point there. I wasn't in 
the room, but what I've been told by staff is he was willing to 
answer the question. He started to answer the question when 
counsel jumped in and insisted that he not answer the question. 
That's what I have a problem with.
    Mr. Cummings and I, on February 18 of 2015, Mr. Meyer, 
2015, more than a year ago, jointly sent a letter, along with 
Mr. DeSantis and Mr. Lynch, requesting some information. There 
were 16 issues, 16 topics. There are still topics that we have 
had no production on, literally not a document on. We further 
have issued subpoenas, but why is it that we can't get a single 
document out of Homeland Security regarding Secret Service, the 
April 2012 Cartagena incident? Why aren't you providing that 
information to us?
    Mr. Meyer. So we have provided quite a good number of 
documents relating to the Cartagena incident. We have provided 
to you every--I believe the Secret Service has given you every 
document that was previously made available to Congress, 
because, as you know, there were prior investigations of that--
I believe in the House, but certainly in the Senate. So you 
have those.
    I do recognize--I understand from the Secret Service that 
they have not yet begun production on this additional request, 
which asks for all documents, communications, emails, et 
cetera, I believe, regarding the Cartagena incident. As you 
know, that's a very broad request. It requires a very broad 
search, which I'm told is undertaken----
    Chairman Chaffetz. At what point do we get frustrated 
enough--we issued you a subpoena. Was that not good enough? 
Item 15 is where we have had no response I believe. Why should 
we not hold you in contempt?
    Mr. Meyer. Sir, we have produced----
    Chairman Chaffetz. Nothing under item No. 15, not one 
document.
    Mr. Meyer. Yes, I confirmed that for you. We have produced 
about 17 times in response to the letter in the subpoena. In 
addition, your staff requested that we prioritize a different 
item over that one, and so we have been producing on that. 
That's the February 10, 2016, letter.
    Chairman Chaffetz. You know, our patience is pretty well 
exhausted on this, and you leave us with no other remedy. You 
leave us with no other choice. The three of you are here for a 
reason. You earned it. You earned it because you're not being 
responsive to duly issued subpoenas. I do hope--I really do 
hope at some point you--well, I don't want to make it too 
personal, but I got to tell you, you have a fiduciary 
responsibility, and our checks and balances, our constitutional 
form of government only works if we have good, honest, decent 
people who actually comply with the law. And when we issue a 
subpoena, it's the law. You can come up with all the excuses 
and all the things you want to hide out there, but when we 
issue a subpoena from the Congress, it's not optional. You have 
to provide it, not to your counsel, not to Legislative Affairs, 
but to the United States Congress. That's how it works.
    Mr. Shelanski, do you believe that Congress has the 
authority to investigate and legislate regarding the Waters of 
the United States?
    Mr. Shelanski. Yes, sir.
    Chairman Chaffetz. And you believe that the concerns or 
questions we have about WOTUS and OIRA are within the 
committee's legitimate areas of interest. Correct?
    Mr. Shelanski. Yes, sir.
    Chairman Chaffetz. That we may need to consider some 
legislative action, and the documents under subpoena might 
assist us in that effort. Correct?
    Mr. Shelanski. I don't understand the full purpose, but, 
yes, I would assume that to be true.
    Chairman Chaffetz. Is it true that there are documents that 
your search turned up that are currently sitting with your 
general counsel but have not been given to Congress?
    Mr. Shelanski. Our review is ongoing. Yes.
    Chairman Chaffetz. And you have no idea when we'll receive 
those documents?
    Mr. Shelanski. I will go back and work with them to make 
sure that our production is as fast as possible. We have been 
trying to produce even more quickly with each production.
    Chairman Chaffetz. And how many total documents have you 
turned over to the Office of General Counsel that have not been 
given to the Congress?
    Mr. Shelanski. I don't know the answer to that question, 
sir.
    Chairman Chaffetz. We issued that in your letter. We put it 
in the March 18. This is like a month ago. We sent this to you 
to be prepared to answer that question.
    Mr. Shelanski. Because the search required by the subpoena 
is so broad----
    Chairman Chaffetz. It's a simple exercise to go in and look 
at what is sitting in the General Counsel's Office that you 
haven't yet given to Congress. That is not a difficult 
mathematical equation. You received the invitation to testify 
specifically on this information more than a month ago, and for 
your unwillingness to provide that information under oath today 
is just without excuse.
    Mr. Shelanski. Mr. Chaffetz, it's very difficult to 
understand what the full universe of documents might be for 
such a broad and long subpoena going back 9 years. I don't want 
to give an incorrect answer, and so----
    Chairman Chaffetz. We gave you a month to come up with it. 
You can't even tell me how many are sitting in there.
    Mr. Shelanski. That is correct because a lot of the 
documents are unresponsive. We're continuing to review, and 
it's hard to know what the----
    Chairman Chaffetz. You can err on the side of giving us too 
much information, but what you're choosing to do is to hide the 
documents from the United States Congress. That's my opinion. 
We have well established this through----
    Mr. Shelanski. We aren't hiding documents.
    Chairman Chaffetz. We have got to conclude this at some 
point.
    Mr. Shelanski. Our production is ongoing, and we hope to 
conclude as quickly as we can. We are hiding nothing.
    Chairman Chaffetz. For a subpoena--the document requests 
have been going on for a year. We have had enough.
    The last thing from me. Mr. Meyer, why do you give us 
documents with these redactions? Why? It takes longer than just 
producing them. They're under subpoena from the United States 
Congress. What justification do you have for redacting these 
documents?
    Mr. Meyer. I can't speak to that specific document that 
you're holding. I'd have to look at it, but we have redacted 
documents for any number of reasons, for national security 
reasons, deliberative communications, documents that are 
protected by law, information that may constitute an 
unwarranted invasion, an unnecessary invasion of personal 
privacy, those sorts of things.
    Chairman Chaffetz. Let me give you a couple of--we have 
information that the Secret Service personnel, some of them, 
were inappropriately using funds that were allocated for 
confidential informants, that they were using those for their 
own retirement party and to pay off credit cards. We are doing 
a legitimate investigation here. It's something of critical 
importance. These people stand with a gun by the President of 
the United States. You redact out the date of the incident, the 
location of the incident, the lead inspector of the incident, 
the reviewing supervisor of the incident, the date the case 
went to the administrative review, the destroy date, the last 
update by, the names of the people that are involved in this. 
So what justification do you have? What is the national 
security imperative that says you can't give us, the Congress, 
the date of the incident?
    Mr. Meyer. So I don't believe I've ever seen these specific 
documents.
    Chairman Chaffetz. How can you not have seen them?
    Mr. Meyer. Because I don't work at the Secret Service, Mr. 
Chairman, but I am happy to review them and get you an answer.
    Chairman Chaffetz. Homeland Security insists that we work 
through Homeland Security on Secret Service issues. They're 
part of Homeland Security. Correct?
    Mr. Meyer. Absolutely. But I will freely admit I have not 
read all 13,000 pages that they have produced to you.
    Chairman Chaffetz. Well, I am asking you specifically about 
these incident reports. Whose responsibility, when I issue a 
subpoena, whose responsibility is it to provide full and 
complete information?
    Mr. Meyer. The Department's.
    Chairman Chaffetz. Who specifically? The Secretary? 
Correct? Who does he hire to do that?
    Mr. Meyer. There are any number of people who work on that 
at the Department. One person alone could not produce all of 
these documents, sir.
    Chairman Chaffetz. So who specifically in Homeland Security 
on your team reviews the Secret Service redactions? Who does 
that?
    Mr. Meyer. So it depends on the matter, on the documents, 
on the issues. It could be----
    Chairman Chaffetz. Give me some names. I want to know who 
they are.
    Mr. Meyer. There are attorneys at the office.
    Chairman Chaffetz. I want to know who they are. I want 
their names.
    Mr. Meyer. There are employees of the Office of Legislative 
Affairs. There are employees of the Office of Congressional 
Relations.
    Chairman Chaffetz. I'm asking you for specific names. I 
know what their responsibilities are. When will you provide me 
those names?
    Mr. Meyer. I do not want--if you want to blame someone, 
blame me, sir. I'm not going to blame career----
    Chairman Chaffetz. You say you're not involved.
    Mr. Meyer. They work for me. The attorneys at the Office of 
General Counsel----
    Chairman Chaffetz. I'm asking you a simple question, Mr. 
Meyer. When will you provide this committee the names of people 
who were involved in creating the redactions on the Secret 
Service documents that were under subpoena?
    Mr. Meyer. I certainly couldn't tell you that here and now.
    Chairman Chaffetz. I'm asking you when.
    Mr. Meyer. I will get back to you on that.
    Chairman Chaffetz. I'm asking you when.
    Mr. Meyer. I don't know, sir.
    Chairman Chaffetz. I'm asking you to come up with a date to 
tell me who reviews the Secret Service redactions. That's not a 
difficult request.
    Mr. Meyer. I don't know the names of all the people who 
review those.
    Chairman Chaffetz. And I'm giving you time to come up with 
those. Seriously. Come on. You watched this YouTube video. I 
mean, come on. This is what we're up against. Give me a date, a 
reasonable date, to come up with the names of people who were 
involved in creating the redactions on the Secret Service 
documents?
    Mr. Meyer. I imagine I can get that to you sometime in the 
next couple of weeks.
    Chairman Chaffetz. Come up with an actual specific date. 
How about May 5? Is that fair?
    Mr. Meyer. I am not going to promise anything because I'm 
not in the business of, under oath, making predictions that I 
cannot be certain I will keep, but I will do everything I can 
to get you an answer by May 5.
    Chairman Chaffetz. This is the game that we play, and it's 
what makes people sick and disgusted with their government. It 
makes them sick and disgusted with these agencies and the 
bureaucracy that won't be responsive to the American people. 
We're trying to do a legitimate oversight of the Secret 
Service. You've got people that are misusing funds. We have 
established that, and you're playing games with us, with the 
very people that are holding these guns near the President of 
the United States, his daughters, his wife, and you're playing 
these kind of games with us. I don't know how you justify it. I 
don't know how you justify your existence. When the Congress 
introduces a subpoena, it is the law of the land that you 
provide those documents to the United States Congress, not go 
back and start using your Wite-Out and making sure that we 
don't see that information. This is one of the most frustrating 
things we do in the United States Congress, and I better stop 
saying any more before I say something that goes too far.
    Mr. Cummings, do you have any other?
    Mr. Cummings. Yes. Can you all understand the frustration 
that we have?
    Mr. Shelanski. Yes, sir.
    Mr. Cummings. But you can't do anything about it, you don't 
think?
    Mr. Shelanski. We have been trying to do something about 
it. We have been trying to work ever faster and ever better 
with the committee, and we pledge to continue to do so so that 
we may, without running out the clock, give the committee what 
it needs for its oversight functions.
    Mr. Esquea. Mr. Cummings, we will continue to work to 
understand and accommodate the interests of the committee.
    Mr. Cummings. Mr. Meyer?
    Mr. Meyer. Yes, we will continue to try to improve. As I 
say, we have improved a lot over the last couple years in the 
face of increased demands, but we're not going to rest on that. 
We're going to continue to try to improve.
    Mr. Cummings. Gentlemen, we have to do better. We got to do 
better. I can understand the chairman's frustration. As I said, 
there has to be a balance. We have to be able to get the 
documents to do our jobs.
    At the same time, we take in consideration the problems 
that you all may have, the various privileges that you may be 
asserting, but I got to tell you that this is not balancing 
out. It sounds to me like there's some rope-a-doping here going 
on. I'm just telling you, and I think we can do better. I 
really do. That's just my opinion, and I would hope that you 
would go back to your agencies and try to speed up this 
process. Thank you.
    Chairman Chaffetz. The committee stands adjourned.
    [Whereupon, at 12:41 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
